<html>
<title> - THREATS FROM SPACE: A REVIEW OF U.S. GOVERNMENT EFFORTS TO TRACK AND MITIGATE ASTEROIDS AND METEORS (PART I & PART II)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          THREATS FROM SPACE: 
                  A REVIEW OF U.S. GOVERNMENT EFFORTS
                    TO TRACK AND MITIGATE ASTEROIDS
                     AND METEORS (PART I & PART II)

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        TUESDAY, MARCH 19, 2013
                                  and
                       WEDNESDAY, APRIL 10, 2013

                               __________

                           Serial No. 113-14
                                  and
                           Serial No. 113-17

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-552                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
Thomas Massie, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           VACANCY
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY


                            C O N T E N T S

                        Tuesday, March 19, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6

    Written Statement............................................     7

Statement by Representative Donna F. Edwards, Committee on 
  Science, Space and Technology, U.S. House of Representatives...     8
    Written Statement............................................     8

                               Witnesses:

The Honorable John P. Holdren, Director, Office of Science and 
  Technology Policy, Executive Office of the President
    Oral Statement...............................................    10
    Written Statement............................................    12

Gen. William L. Shelton, Commander, U.S. Air Force Space Command
    Oral Statement...............................................    19
    Written Statement............................................    20

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    27
    Written Statement............................................    30

Discussion.......................................................    38

             Appendix I: Answers to Post-Hearing Questions

The Honorable John P. Holdren, Director, Office of Science and 
  Technology Policy, Executive Office of the President...........    64

Gen. William L. Shelton, Commander, U.S. Air Force Space Command.    73

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration...........................    82

            Appendix II: Additional Material for the Record

Submitted statement by Representative Steve Stockman, Committee 
  on Science, Space and Technology...............................    94

Letter submitted by Dr. Dante Lauretta, Department of Planetary 
  Sciences, Lunar and Planetary Laboratory.......................    95

Additional responses submitted by The Honorable Charles F. 
  Bolden, Jr., Administrator, National Aeronautics and Space 
  Administration.................................................    97
                            C O N T E N T S

                       Wednesday, April 10, 2013

                                                                   Page
Witness List.....................................................   102

Hearing Charter..................................................   103

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   105
    Written Statement............................................   105

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   106
    Written Statement............................................   107

                               Witnesses:

Dr. Ed Lu, Chairman and CEO, B612 Foundation
    Oral Statement...............................................   108
    Written Statement............................................   112

Dr. Donald K. Yeomans, Manager, Near-Earth Objects Program 
  Office, Jet Propulsion Laboratory
    Oral Statement...............................................   117
    Written Statement............................................   119

Dr. Michael F. A'Hearn, Vice-Chair, Committee to Review Near-
  Earth Object Surveys and Hazard Mitigation Strategies, National 
  Resource Council
    Oral Statement...............................................   126
    Written Statement............................................   128

Discussion.......................................................   136

             Appendix I: Answers to Post-Hearing Questions

Dr. Ed Lu, Chairman and CEO, B612 Foundation.....................   150

Dr. Donald K. Yeomans, Manager, Near-Earth Objects Program 
  Office, Jet Propulsion Laboratory..............................   156

Dr. Michael F. A'Hearn, Vice-Chair, Committee to Review Near-
  Earth Object Surveys and Hazard Mitigation Strategies, National 
  Resource Council...............................................   169

            Appendix II: Additional Material for the Record

Submitted statement by Representative Steve Stockman, Committee 
  on Science, Space and Technology, U.S. House of Representatives   184

Submitted statement by Representative Donna F. Edwards, Committee 
  on Science, Space and Technology, U.S. House of Representatives   186

Planetary Society Report submitted by Representative Dana 
  Rohrabacher, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   187


                          THREATS FROM SPACE:
                  A REVIEW OF U.S. GOVERNMENT EFFORTS
                    TO TRACK AND MITIGATE ASTEROIDS
                          AND METEORS, PART I

                              ----------                              


                        TUESDAY, MARCH 19, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:11 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T0552.002

[GRAPHIC] [TIFF OMITTED] T0552.003

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Good morning. I am going to 
recognize myself for an opening statement, then the Ranking 
Member, the gentlewoman from Texas, will be recognized as well.
    Today's hearing is on a subject important to our Nation and 
to our world. This is the first hearing of two on space threats 
to Earth, reviewing U.S. Government efforts to track incoming 
asteroids and meteors.
    Although many may be only aware of this subject due to 
recent events, it is actually one as old as our planet. And I 
am going to hold up a copy of Time magazine from nearly 20 
years ago where this topic was featured on the cover. Here is 
Time, ``Cosmic Crash.'' This is 20 years ago. I don't know if 
they were ahead of their time or not, but in any case, the 
subject has been around for a while. This was actually given to 
me by a former staff member, who I had research the subject 20 
years ago as well.
    Though the issue has been around for a number of years, 
there are many questions still to be asked and answered. The 
range of questions are broad and complex, from how to track an 
object millions of miles away to how to respond if an asteroid 
or meteor is headed toward Earth.
    The two events of Friday, February 15, the harmless flyby 
of asteroid 2012 DA14 and the not-so-harmless impact of a 
meteor in Russia, are a stark reminder of the need to invest in 
space science. The asteroid passed just 17,000 miles from 
Earth, a distance less than the Earth's circumference. Fifty 
years ago, we would have had no way of seeing the asteroid 
coming, and even so, it was discovered by amateur astronomers. 
The United States has come a long way in its ability to track 
and characterize asteroids, meteors, comets and meteorites. But 
we still have a long way to go.
    NASA believes it has discovered 93 percent of the largest 
asteroids in near-Earth orbit, those 1 kilometer or larger, but 
what about the other seven percent remaining, about 70, or even 
those smaller than 1 kilometer, estimated to be in the 
thousands? An asteroid as small as 100 meters could destroy an 
entire city upon a direct hit. Are we tracking those? The 
meteor that struck Russia was estimated to be 17 meters, and 
wasn't tracked at all. The smaller they are, the harder they 
are to spot, and yet they can be life threatening.
    The broad scope of our efforts include participation of 
governments, research institutions, industries and amateur 
astronomers in their backyard or on home computers. Some space 
challenges require innovation, commitment and diligence. This 
is one of them. And this Committee will strive to continue to 
lead in this area. For all of the attention and publicity the 
two events of February 15 received, it was still too late for 
us to have acted to change the course of the incoming objects. 
We are in the same position today and for the foreseeable 
future unless we take actions now that improve our means of 
detection.
    Part of our discussion today is about how to achieve this 
in the current budget environment. I do not believe that NASA 
is going to somehow defy budget gravity and get an increase 
when everyone else is getting cuts. But we need to find ways to 
prioritize NASA's projects and squeeze as much productivity as 
we can out of the funds we have. Examining and exploring ways 
to protect the Earth from asteroids and meteors is a priority 
for the American people and should be a priority for NASA.
    We were fortunate that the events of last month were simply 
an interesting coincidence rather than a catastrophe. However, 
we still need to make investments and improvements in our 
capability to anticipate what may occur decades from now, or 
tomorrow.
    [The prepared statement of Mr. Smith follows:]

  Prepared Statement of Lamar S. Smith, Chairman, House Committee on 
                     Science, Space, and Technology

    Good morning. Today's hearing is on a subject important to our 
nation and to our world. This is the first hearing of two on Space 
Threats to Earth, reviewing U.S. Government efforts to track incoming 
asteroids and meteors.
    Although many may be only aware of this subject due to recent 
events, it is actually one as old as our planet. This is a copy of TIME 
Magazine from nearly 20 years ago (1994) where this topic was featured 
on the cover.
    Though the issue has been around for a number of years, there are 
many questions still to be asked and answered.
    The range of questions are broad and complex, from how to track an 
object millions of miles away to how to respond if an asteroid or 
meteor is headed toward Earth.
    The two events of Friday, February 15--the harmless flyby of 
asteroid 2012 DA14 and the not so harmless impact of a meteor in 
Russia--are a stark reminder of the need to invest in space science.
    The asteroid passed just 17,000 miles from Earth, a distance less 
than the Earth's circumference. Fifty years ago, we would have had no 
way of seeing the asteroid coming, and even so it was discovered by 
amateur astronomers.
    The U.S. has come a long way in its ability to track and 
characterize asteroids, meteors, comets and meteorites. But we still 
have a long way to go. NASA believes it has discovered 93 percent of 
the largest asteroids in near-Earth orbit, those one kilometer or 
larger.
    But what about the other seven percent remaining, about 70, or even 
those smaller than one kilometer, estimated to be in the thousands? An 
asteroid as small as 100 meters could destroy an entire city upon a 
direct hit. Are we tracking those?
    The meteor that struck Russia was estimated to be 17 meters, and 
wasn't tracked at all. The smaller they are, the harder they are to 
spot, and yet they can be life-threatening.
    The broad scope of our efforts include participation of 
governments, research institutions, industries and amateur astronomers 
in their backyard or on home computers.
    Some space challenges require innovation, commitment and diligence. 
This is one of them. And this Committee will strive to continue to lead 
in this area.
    For all of the attention and publicity the two events of February 
15 received, it was still too late for us to have acted to change the 
course of the incoming objects. We are in the same position today and 
for the foreseeable future unless we take actions now that improve our 
means of detection.
    Part of our discussion today is about how to achieve this in the 
current budget environment.
    I do not believe that NASA is going to somehow defy budget gravity 
and get an increase when everyone else is getting cuts. But we need to 
find ways to prioritize NASA's projects and squeeze as much 
productivity as we can out of the funds we have.
    Examining and exploring ways to protect the Earth from asteroids 
and meteors is a priority for the American people and should be a 
priority for NASA.
    We were fortunate that the events of last month were simply an 
interesting coincidence rather than a catastrophe.
    However, we still need to make investments and improvements in our 
capability to anticipate what may occur decades from now, or tomorrow.

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, Ms. Johnson, is recognized for 
hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning. I would like to welcome each of our witnesses to 
today's hearing, and I would like to thank you for your 
patience as we postponed this hearing a couple weeks ago.
    As the chairman has indicated, this hearing was called in 
response to recent events in which a large meteor unexpectedly 
exploded in the sky over Russia, damaging property and injuring 
people at almost the same time that a small asteroid passed 
less than 18,000 miles from Earth's surface. While scientists 
indicate that those two events apparently were unrelated, they 
both serve as evidence that we live in an active solar system 
with potentially hazardous objects passing through our 
neighborhoods with surprising frequency.
    Indeed, there is increasing scientific evidence that 
impacts by large asteroids and comets have had profound 
consequences for life on Earth at various times in the past, 
even contributing to mass extinctions. While such events are 
very rare, they obviously can cause untold damage, and are not 
something we want to have happen if we can avoid it.
    I think it is our increased scientific understanding of 
near-Earth objects and their potential to impact the Earth that 
has led Congress to take this subject seriously in recent 
years. In that regard, this Committee has taken a leadership 
role on these issues dating back to the efforts of former 
Chairman George Brown, Jr. in the early 1990s, a time when 
references to killer asteroids could still lead to giggles and 
eye-rolling. Since then, Members on both sides of the aisle, 
including Representative Rohrabacher, former Chairman Hall and 
former Representative Giffords have taken an active and 
productive interest in this topic, and progress has been made.
    I hope that today's hearing will provide us with a good 
update on the Federal Government's efforts to detect, monitor 
and potentially mitigate such hazardous near-Earth objects. 
Much has been accomplished over the last decade, and I look 
forward to hearing about those efforts. In addition, I would 
like to know if there are additional steps that we should be 
taking as a country, whether an expanded detection program or 
international collaborations or other such measures.
    Well, we have much to discuss today and a distinguished 
panel of witnesses to help us in our oversight. I look forward 
to hearing from each of you.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning. I would like to welcome each of our witnesses to 
today's hearing. And I would like to thank you for your patience when 
we were forced to reschedule this hearing in the wake of the Washington 
snow event two weeks ago.
    As the Chairman has indicated, this hearing was called in response 
to recent events in which a large meteor unexpectedly exploded in the 
sky over Russia, damaging property and injuring people at almost the 
same time that a small asteroid passed less than 18,000 miles from 
Earth's surface. While scientists indicate that those two events 
apparently were unrelated, they both serve as evidence that we live in 
an active solar system, with potentially hazardous objects passing 
through our neighborhood with surprising frequency.
    Indeed, there is increasing scientific evidence that impacts by 
large asteroids and comets have had profound consequences for life on 
Earth at various times in the past, even contributing to mass 
extinctions. While such events are very rare, they obviously can cause 
untold damage, and are not something we want to have happen if we can 
avoid it.
    I think it is our increased scientific understanding of Near Earth 
Objects and their potential to impact the Earth that has led Congress 
to take this subject seriously in recent years. In that regard, this 
Committee has taken a leadership role on these issues dating back to 
the efforts of former Chairman George Brown, Jr. in the early 1990s--a 
time when references to ``killer asteroids'' could still lead to 
giggles and eye-rolling. Since then, Members on both sides of the 
aisle, including Rep. Rohrabacher, former Chairman Hall, and former 
Rep. Giffords have all taken an active and productive interest in this 
topic, and progress has been made.
    I hope that today's hearing will provide us with a good update on 
the federal government's efforts to detect, monitor, and potentially 
mitigate such hazardous Near Earth Objects. Much has been accomplished 
over the last decade, and I look forward to hearing about those 
efforts.
    In addition, I would like to know if there are additional steps 
that we should be taking as a country, whether an expanded detection 
program or international collaborations or other such measures.
    Well, we have much to discuss today and a distinguished panel of 
witnesses to help us in our oversight. I look forward to hearing from 
each of you.

    Ms. Johnson. At this point I would like to yield the 
remaining part of my time to Ms. Edwards, the Ranking Member of 
the Space Subcommittee, for her comments.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you, 
Mr. Chairman.
    I just wanted to note for the record, Madam Chairwoman, 
that this hearing is part one of the Committee's examination of 
activities related to near-Earth objects. Subcommittee Chairman 
Palazzo and I will hold a hearing of part two in early April, 
and so this will be a continuation. And I wanted to note for 
the record, Madam Chairwoman, that just a month ago after the 
events that made the news, my colleague, Rush Holt, who is a 
physicist here in Congress and former Assistant Director of the 
Princeton Plasma Physics Laboratory, and I coauthored an op-ed 
that appeared in the Washington Post on February 15 trying to 
put into plain language what the challenges are, the research 
challenges, what the threats are so that the American people 
have some understanding that as both the ranking member and the 
chairman have noted is not new for this Committee but poses 
challenges for the American people, especially when it comes to 
resources.
    I think it is very fitting that this Committee is 
considering U.S. government agency roles and responsibilities 
in near-Earth object detection, tracking and mitigation, not 
only because of the recent events, but because we have been at 
the forefront in setting the U.S. policy on near-Earth objects 
for the past two decades, and it was this Committee that 
formulated the provisions in 2008, NASA authorization and 
subsequent policy direction that called for the Office of 
Science and Technology Policy to develop policies on emergency 
response and to recommend a lead agency for protecting the 
United States, and this depended on NASA, who we always seem to 
call for 911 assistance in all space matters is in stark 
contrast to the across-the-board cuts that NASA programs now 
face under law.
    And so Mr. Chairman, I am struck by how this complex 
planetary protection issue is and how much farther we need to 
go, and I am looking forward to today's testimony, and with 
that I yield.
    [The prepared statement of Ms. Edwards follows:]
         Prepared Statement of Representative Donna F. Edwards

    Thank you, Ranking Member Johnson.
    It should be noted that this hearing is Part 1 of the Committee's 
examination of activities related to near-Earth objects (NEOs). 
Subcommittee Chairman Palazzo and I will hold Part 2 in early April.
    It is fitting that this Committee is considering U.S. government 
agency roles and responsibilities in NEO detection, tracking, and 
mitigation, not only because of the recent events, but because this 
Committee has been at the forefront in setting the U.S. policy on NEOs 
for the past two decades.
    The Committee's focus, beginning in the 1990s, has led to NASA's 
establishment of a system for detection and tracking of large NEOs, 
such as the 2012 DA14 asteroid. And it was this Committee that 
formulated the provisions in the 2008 NASA Authorization that called 
for the Office of Science and Technology Policy to develop policies on 
emergency response and to recommend a lead agency (or agencies) for 
protecting the United States from a NEO that is expected to collide 
with Earth and, if necessary, for implementing a deflection campaign, 
in consultation with international bodies.
    As we will hear today from Dr. Holdren, NASA has a key role.
    That should not come as a surprise. NASA's combined scientific, 
technical, and engineering capability is absolutely essential to 
informing critical decisions on mitigation of a potentially hazardous 
object. This dependence on NASA, who we always seem to call for 911 
assistance in all space matters, is in stark contrast to the across-
the-board sequester cuts to NASA's programs that are now law.
    Mr. Chairman, I am struck with how complex this planetary 
protection issue is and how much farther we need to go. That is why 
Congress needs to ensure continued investment in and attention to 
efforts that will address the potential threats of near-Earth objects.
    I look forward to hearing from our distinguished group of panelists 
on the priorities for Congress going forward.

    Chairman Smith. Thank you, Ms. Johnson. Thanks, Ms. 
Edwards.
    Without objection, other Members' opening statements will 
be made a part of the record.
    Our first witness is the Hon. John P. Holdren. Dr. Holdren 
serves as the Director of the Office of Science and Technology 
Policy, the Assistant to the President for Science and 
Technology, and Co-Chair of the President's Council of Advisors 
on Science and Technology. Prior to his current appointment, he 
was a professor in both the Kennedy School of Government and 
the Department of Earth Science at Harvard. Dr. Holdren 
graduated from M.I.T. with degrees in aerospace engineering and 
theoretical plasma physics.
    General William L. Shelton is the Commander of the United 
States Air Force Space Command. Prior to assuming his current 
position, General Shelton was the Assistance Vice Chief of 
Staff and the Director of the Air Staff at the Pentagon. He 
currently organizes, equips, trains and maintains mission-ready 
space and cyberspace forces and capabilities for the North 
American Aerospace Defense Command and U.S. Strategic Command. 
General Shelton graduated from the U.S. Air Force Academy with 
a bachelor's degree in astronautical engineering. He also holds 
a master's degree in this field from the U.S. Air Force 
Institute of Technology.
    Our final witness is the Hon. Charles F. Bolden, Jr., the 
Administrator of the National Aeronautics and Space 
Administration. Administrator Bolden served as a pilot in the 
Marine Corps, eventually earning the rank of General. In the 
course of his military career, he participated in several 
international campaigns. He also tested a variety of ground-
attack aircraft until his selection as an astronaut candidate 
in 1980. Administrator Bolden held a number of positions at 
NASA. He was able to participate in and support several space 
shuttle flights, and he traveled to orbit four times aboard the 
Space Shuttle, twice as a mission commander. For his many 
achievements, Administrator Bolden was inducted into the U.S. 
Astronaut Hall of Fame in May of 2006. He earned a bachelor's 
degree in electrical science from the U.S. Naval Academy and a 
master's degree in systems management from the University of 
Southern California.
    We welcome you all. Thank you for being here. And Director 
Holdren, if you will begin?

        TESTIMONY OF THE HON. JOHN P. HOLDREN, DIRECTOR,

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Holdren. Chairman Smith, Ranking Member Johnson, 
Members of the Committee, I am pleased to be here today to 
discuss U.S. activities to detect, to track, to characterize 
near-Earth objects, or NEOs, and to develop the capability to 
deflect any of dangerous size that are discovered to be on a 
collision course with the Earth. This is, of course, a 
particularly timely topic for reasons that all of you mentioned 
in your opening statements.
    Near-Earth objects are defined as those whose orbits bring 
them within about 31 million miles of the Earth, a third of the 
distance to the sun, some of them traveling close enough to 
make an eventual collision a possibility. Those with maximum 
physical dimension of more than a meter are generally referred 
to as either asteroids or comets, while smaller objects are 
referred to as meteoroids. All are called meteors upon fiery 
transit of the Earth's atmosphere, and the pieces that strike 
the surface are called meteorites.
    Dozens of asteroids a meter or more in size enter the 
Earth's atmosphere each year, of which only one on the average 
is as big as 4 meters. Asteroids of these sizes burn up 
harmlessly high in the atmosphere. Damage on Earth's surface is 
likely only when the kinetic energy of the object is in the 
range of a few hundreds of kilotons of TNT equivalent or above. 
That corresponds at typical closing velocities to a stony 
asteroid about 15 meters in equivalent diameter.
    The 17-meter asteroid that blew up over Russia on February 
15 released about 440 kilotons of energy. Asteroids with that 
much energy strike the Earth only every 100 years or so. Larger 
events like the 1908 asteroid explosion over Siberia, which 
released about 15 megatons of energy and leveled trees over an 
area of more than 850 square miles, are believed to be once-in-
a-thousand-years events. If an asteroid explosion of that size 
were to occur over an urban area, it could cause hundreds of 
thousands of casualties, but the probability of this occurring 
is much smaller than the one-in-a-thousand-years probability I 
just mentioned for one hitting the Earth at all, and that is 
because land covers only 30 percent of the area of the Earth 
and urbanized areas cover only two to three percent of the land 
area.
    As a result, the odds of a near-Earth object strike causing 
massive casualties and destruction of infrastructure are very 
small, but the potential consequences of such an event are so 
large that it makes sense to take the risk seriously. Both the 
Congress and recent Administrations have done so.
    In 1998, Congress tasked NASA with locating within 10 years 
at least 90 percent of all NEOs with a diameter of 1 kilometer 
or greater, those with the potential to threaten civilization, 
and in 2005, Congress directed NASA to detect, track, catalog 
and characterize 90 percent of all NEOs with a diameter of 140 
meters or greater by 2020. The 1-kilometer goal was achieved in 
2011. The task of detecting 90 percent of NEOs larger than 140 
meters is much more challenging but work on it is proceeding 
apace.
    More recent legislation directed the Office of Science and 
Technology Policy to develop a policy for notifying relevant 
authorities of an impending threat, to recommend a Federal 
entity responsible for protecting the Nation from an expected 
NEO collision, and to implement a policy of threat 
notification. In an October 2010 letter to this Committee, I 
reported on our progress on those tasks.
    The budget for NASA's Near-Earth Object Observation program 
has actually increased about fivefold since 2009 from a little 
less than $4 million to $20.5 million in Fiscal Year 2012. 
Beyond detection and tracking of potentially threatening 
objects, moreover, the Administration is committed to exploring 
and developing the capabilities necessary to protect the Earth 
in general and the United States in particular from NEO 
threats. NASA coordinates this work with the Departments of 
Defense, State and Homeland Security including the latter's 
Federal Emergency Management Agency.
    I thank the Committee for its continued support and its 
interest in this issue, and I will be pleased to take any 
questions that the Members may have.
    [The prepared statement of Dr. Holdren follows:]

    [GRAPHIC] [TIFF OMITTED] T0552.004
    
    [GRAPHIC] [TIFF OMITTED] T0552.005
    
    [GRAPHIC] [TIFF OMITTED] T0552.006
    
    [GRAPHIC] [TIFF OMITTED] T0552.007
    
    [GRAPHIC] [TIFF OMITTED] T0552.008
    
    [GRAPHIC] [TIFF OMITTED] T0552.009
    
    [GRAPHIC] [TIFF OMITTED] T0552.010
    
    Chairman Smith. Thank you, Dr. Holdren.
    General Shelton.

             TESTIMONY OF GEN. WILLIAM L. SHELTON,

            COMMANDER, U.S. AIR FORCE SPACE COMMAND

    General Shelton. Mr. Chairman, Representative Johnson and 
distinguished Members of the Committee, it is an honor to 
appear before you today. It is also a privilege to appear with 
my colleagues and teammates in the space community.
    Space situational awareness underpins our entire spectrum 
of space activities, and Air Force Space Command is proud of 
our crucial role in monitoring activity in the space domain. 
Specifically, we provide capabilities employed ultimately by 
United States Strategic Command to detect, track, identify and 
characterize human-made objects in Earth orbit. Our sensors 
also are capable of detecting natural phenomena like bolides.
    However, the Nation's current capability to track asteroids 
is dependent upon NASA and other organizations such as the 
Massachusetts Institute of Technology's Lincoln Laboratory. For 
example, during the recent asteroid 2012 DA14 event, the Joint 
Space Operations Center at Vandenberg Air Force Base in 
California used tracking data from NASA's Near Earth Object 
Program Office at the Jet Propulsion Laboratory to perform 
collision avoidance screenings to ensure the safety of our 
satellites. We remain committed to working closely with our 
partners to ensure comprehensive space situational awareness 
for the Nation.
    I thank you for the opportunity to appear before you, and I 
look forward to your questions.
    [The prepared statement of General Shelton follows:]

    [GRAPHIC] [TIFF OMITTED] T0552.011
    
    [GRAPHIC] [TIFF OMITTED] T0552.012
    
    [GRAPHIC] [TIFF OMITTED] T0552.013
    
    [GRAPHIC] [TIFF OMITTED] T0552.014
    
    [GRAPHIC] [TIFF OMITTED] T0552.015
    
    [GRAPHIC] [TIFF OMITTED] T0552.016
    
    [GRAPHIC] [TIFF OMITTED] T0552.017
    
    Chairman Smith. Thank you, General Shelton.
    Administrator Bolden.

         TESTIMONY OF THE HON. CHARLES F. BOLDEN, JR.,

              ADMINISTRATOR, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    General Bolden. Mr. Chairman and Members of the Committee, 
thank you for the opportunity also to appear today to discuss 
the topic of near-Earth objects, and before I formally begin, 
Mr. Chairman, I would like to congratulate you on your 
appointment as the new Chairman of the House Science, Space, 
and Technology Committee, and I look forward to working with 
you in that capacity.
    I would also like to thank you, Mr. Chairman, and 
Congresswoman Edwards and Congressman Holt, who is not here, 
for the recent op-eds that you wrote that called more attention 
to this for the American public, which I think is really 
important.
    The events of February 15, 2013, were a stark reminder of 
why NASA has for years devoted a great deal of attention to 
near-Earth objects and why this hearing is so timely and 
important. The events of February 15 also highlight the wisdom 
of Congress, the Administration and NASA in enabling a human 
exploration of an asteroid.
    The predicted close approach of a small asteroid called 
2012 DA14 and the unpredicted entry and explosion of a very 
small asteroid about 15 miles above Russia that Dr. Holdren 
talked about earlier have focused a great deal of public 
attention on the necessity of tracking asteroids and other 
near-Earth objects and protecting our planet from them, 
something this Committee and NASA have been working on for over 
15 years. Again, NASA has been focused on tracking asteroids 
and protecting our home planet from them well before these 
recent events. In fact, NASA's focus in this area is evident 
from our fivefold increase in near-Earth object budgets since 
2010, and literally dozens of people are involved with some 
aspect of our NEO research across NASA and its field centers.
    In addition to the resources NASA puts into understanding 
asteroids, the agency partners with university astronomers, 
space science institutes and other agencies across the country 
that are working to track and better understand these near-
Earth objects, often with grants, interagency transfers and 
other contracts from NASA.
    The new public attention is not hard to understand. The 
coincidence of having these two very rare events happening on 
the same day along with the unfortunate injuries of over 1,000 
people on the ground in Russia made this a very big news event. 
However, we should remember that the probability of any sizable 
NEO impacting the Earth any time in the next 100 years is 
extremely remote.
    To put these two recent events in context, very small 
objects enter the Earth's atmosphere all the time. Current 
estimates are that on average, about 80 tons of material in the 
form of dust grains and small meteoroids enter the Earth's 
atmosphere every single day, objects the size of a basketball 
arrive once a day, and objects as large as a car arrive about 
once per week. Our Earth's atmosphere protects us from these 
small objects, so nearly all are destroyed before hitting the 
ground and pose no threat to life here on Earth. However, the 
potential consequences of a significant impact are potentially 
very great indeed. Consistent with NASA's role as established 
by Congress and prescribed in the President's National Space 
Policy, NASA has taken a leadership role to pursue capabilities 
to detect, track and characterize near-Earth objects to reduce 
the risk of harm to humans from an unexpected impact on our 
planet.
    NASA is also developing new vehicles and capabilities 
including Orion and the Multipurpose Crew Vehicle and the Space 
Launch System, which will enable human exploration of the solar 
system beyond low-Earth orbit. As the President stated in his 
April 15, 2010, speech at the Kennedy Space Center, NASA's 
intention is to ``send astronauts to an asteroid for the first 
time in history'' and NASA is working to accomplish this 
mission by 2025. In fact, NASA leads the world in the detection 
and characterization of NEOs and is responsible for the 
discovery of about 98 percent of all known NEOs.
    Now, here I will take a risk. There should be a chart 
coming up very soon. It is. Thank you. As shown in this 
graphic, the cumulative discovery of near-Earth asteroids 
started picking up dramatically in 1998 with the start of 
NASA's Spaceguard Search program, and the number of known near-
Earth asteroids has grown from a few hundred to nearly 10,000 
in just 15 years, and I think it is not insignificant that it 
goes almost asymptotic when you look at 2005 when the Congress, 
NASA and the Administration really picked up the emphasis on 
that.
    NASA continues to make progress toward the goals set for us 
by the Congress. To date, over 9,600 near-Earth asteroids of 
all sizes have been found. Larger asteroids pose a greater 
threat to the planet as a whole, and the percentage of 
asteroids we have identified tracks this relationship. We found 
95 percent of the largest NEOs over 1 kilometer in size. Our 
current estimate is that we have also found about 60 percent of 
the NEOs that are between 300 meters and 1 kilometer. As the 
graphic shows, we still have some work to do to find NEOs in 
the 140-meter class, and the next graphic please. You can see 
here the total discovered per size and you can see where we are 
lacking as the sizes go down.
    Our remote ground-based observations of comets and 
asteroids have been augmented by close-up reconnaissance data 
from our science missions. From 1997 to 2001, NASA's near-Earth 
asteroid rendezvous flyby flew by two main asteroid belts 
before orbiting and landing on the near-Earth asteroid 433 
Eros. Last August, our Dawn spacecraft departed the asteroid 
Vesta and is now on its way to a 2015 rendezvous with Ceres, 
the solar system's largest asteroid. Launching in 2016, NASA's 
OSIRIS-REx mission will return a sample of up to 2.2 pounds 
from an asteroid to Earth in 2023.
    Of course, NASA is working to accomplish an astronaut visit 
to an asteroid by 2025. This mission and the vital precursor 
activities that will be necessary to ensure its success should 
result in additional insight into the nature and composition of 
NEOs and will increase our capability to approach and interact 
with asteroids.
    NASA has a long history of observing comets and asteroids 
but as their importance as potentially hazardous objects has 
become apparent, NASA has significantly increased its program 
of detection, reconnaissance and characterization. We have 
gained a nearly complete understanding of the population of 
NEOs over 1 kilometer in size, and we are making marked 
progress in protecting our planet from smaller but still 
dangerous objects. While we emphasize that the risks form 
impacts are remote, we remain absolutely committed to 
fulfilling our responsibility to find and track near-Earth 
objects. We will continue to scan the skies and update the 
Congress and the world on what we find.
    Again, thank you very much for the opportunity to testify 
today, and I look forward to responding to any questions you 
may have.
    [The prepared statement of General Bolden follows:]

    [GRAPHIC] [TIFF OMITTED] T0552.018
    
    [GRAPHIC] [TIFF OMITTED] T0552.019
    
    [GRAPHIC] [TIFF OMITTED] T0552.020
    
    [GRAPHIC] [TIFF OMITTED] T0552.021
    
    [GRAPHIC] [TIFF OMITTED] T0552.022
    
    [GRAPHIC] [TIFF OMITTED] T0552.023
    
    [GRAPHIC] [TIFF OMITTED] T0552.024
    
    [GRAPHIC] [TIFF OMITTED] T0552.025
    
    Chairman Smith. Thank you, Administrator Bolden.
    I recognize myself for questions, and let me address the 
first one to Dr. Holdren and then perhaps, Administrator 
Bolden, to you as well. There seems to be general agreement 
based upon your testimonies that we are able to detect 90 to 95 
percent of the near-Earth objects that are larger than 1 
kilometer somewhere around 60 percent of the objects that are 
over 300 meters, so my question is this. I haven't heard yet 
nor have I seen yet what percentage of the near-Earth objects, 
the incoming asteroids that are 100 meters, what percentage of 
those objects are we able to detect, 100 meters being, I think, 
Dr. Holdren, you described in your written testimony as the 
size of a city destroyer. So what percentage of the 100-meter 
near-Earth objects can we detect, and do you have a figure for 
that?
    Dr. Holdren. I believe at this point that number would be a 
little under 10 percent. The number for 140 meters and above is 
10 percent. The 100 would be a little under 10 percent.
    Chairman Smith. Administrator Bolden, do you agree with 
that?
    General Bolden. Yes, sir, that was on that second chart I 
showed where it looks like the less than 10 percent for----
    Chairman Smith. Okay. How many objects are we talking about 
that we are not able to detect that might be the city 
destroyers?
    General Bolden. Numbers of objects?
    Chairman Smith. Yes.
    General Bolden. Mr. Chairman, I don't know that answer, and 
that is one thing I cannot take for the record because----
    Chairman Smith. What was the 10 percent?
    Dr. Holdren. I can answer that question, Mr. Chairman.
    Chairman Smith. Okay, Dr. Holdren.
    Dr. Holdren. The estimates of how many objects exist, near-
Earth objects in the range of 140 meters or above are between 
13,000 and 20,000 objects. So that is the number of which we 
have detected 10 percent. That is the much more challenging 
goal, which the Congress put before us to identify 90 percent 
of those by 2020.
    Chairman Smith. Roughly 2,000 objects that are city 
destroyers, we are not detecting. Is that roughly right?
    Dr. Holdren. No, more, because the number we are detecting 
is 10 percent of 13,000 to 20,000 so----
    Chairman Smith. I was going in----
    Dr. Holdren. So you were going the other way. 
Unfortunately, the number undetected----
    Chairman Smith. I was going 1,300 to 2,000, and I was going 
to the larger figure. That is why I said 2,000.
    General Bolden. So the number of undetected potential city 
killers is very large. It is in the range of 10,000 or more.
    Chairman Smith. Ten thousand or more. Okay. Not reassuring, 
but what is reassuring, we hope, is the unlikelihood that one 
of those city destroyers would actually hit a city. As you 
pointed out, two to three percent of the earth's area is urban 
area.
    Administrator, what programs, what improvements, what 
developments can we expect in the next, say, 2 years or 5 years 
to be able to better detect these thousands of near-Earth 
objects that might be life threatening?
    General Bolden. Mr. Chairman, we continue our work, our 
collaboration with our international partners. That is very 
important. As Dr. Holdren mentioned earlier, he didn't specify 
but it was a Spanish astronomer, amateur astronomer actually, 
or I think----
    Chairman Smith. Do you expect improvements in Earth-based--
I mean telescopes, for example, that will enable us to better 
detect these?
    General Bolden. What we are really looking at is not 
improvements but increase in the numbers of space-borne assets. 
We really need to have space-borne assets that are able to 
look. We are cooperating right now with a Space Act Agreement 
with a private company called B612 that will be engaged in the 
identification and characterization of asteroids, and my hope 
is that there will be more.
    Chairman Smith. Okay. And what percentage of these 
thousands would we be able to detect in the next few years that 
we are not detecting now? Any idea?
    General Bolden. If you talk about the 140-meter class, our 
estimate right now is at the present budget levels--that is 
present budget levels, not the going-down budget levels--it 
will be 2030 before we are able to reach the 90 percent level 
as prescribed by Congress to detect and characterize those 90 
percent of the 140-meter class.
    Chairman Smith. Okay. Thank you for the answer, though, 
again, that is not particularly reassuring. Maybe we can help 
you out with the budget. Don't know.
    General Shelton, last question for you. Was the Department 
of Defense aware of the meteor that exploded over Russia?
    General Shelton. Mr. Chairman, not until we were tipped off 
by NASA.
    Chairman Smith. And that was after the fact, or how far 
before the fact?
    General Shelton. No, it was--I want to say it was two or 
three days preceding----
    Chairman Smith. Two or three days before it exploded over 
Russia? Okay.
    General Shelton. I am sorry. You said the explosion. I was 
talking about DA14.
    Chairman Smith. No, I am talking about the meteor that 
exploded over Russia.
    General Shelton. We had no insight in that at all.
    Chairman Smith. Even with satellites, even with everything 
else?
    General Shelton. We were aware of the event when it 
occurred.
    Chairman Smith. And not before?
    General Shelton. Not before.
    Chairman Smith. I just have to ask you, how then are we 
going to be aware of, say, incoming missiles if we couldn't 
detect the meteor exploding over Russia?
    General Shelton. Now, we did detect it. We were aware of 
the event.
    Chairman Smith. But at the time of the event, not before?
    General Shelton. Yes, sir, and we would have to take that 
into a different forum to talk in more detail.
    Chairman Smith. Okay. Thank you, and that concludes my 
questions. The Ranking Member, Ms. Johnson, is recognized for 
hers.
    Ms. Johnson. Thank you very much.
    Dr. Holdren, in October 2010, the Congressional response to 
the direction in the 2008 NASA Authorization Act described 
roles and responsibilities for NASA, FEMA, DOD and State but is 
silent who has the overall responsibility, and I was wondering 
who in this Administration is the--who has the single 
responsibility to oversee the other activities of other 
agencies?
    Dr. Holdren. Well, NASA is responsible, has the overarching 
responsibility for detection and notification. NASA notifies 
FEMA, they notify the Department of Defense. On the question of 
mitigation, who would have the responsibility if an asteroid 
were discovered to be on a collision course, that would depend 
on the size of the asteroid and the amount of notice we had. 
For some deflection missions, you would want NASA to be in 
charge. For other kinds of deflection missions, you would want 
DOD to be in charge. So it does not make sense from the 
standpoint of the mitigation mission to specify in advance 
which agency would do it, but the notification--identification 
and notification responsibilities are unambiguous.
    Ms. Johnson. So when there is mitigation, do all of you 
come together or who takes the lead? What determines who takes 
the lead?
    Dr. Holdren. In that event, we would certainly all come 
together, and we are in fact exercising those kinds of 
communications. There is actually an exercise coming up in the 
middle of next month when we will exercise those interactions, 
communications and the exercise of responsibilities. There is a 
workshop actually coming up at the beginning of next month in 
which those interagency interactions will be further discussed 
and delineated.
    Ms. Johnson. Thank you very much. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Johnson. The gentleman from 
California, Mr. Rohrabacher, is recognized for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    We are talking about space debris and near-Earth objects 
that are--it seems to me that these two issues are not just 
American issues, and we are talking about the cost all this, 
what are we talking about in terms of over a 20-year period, 
the costs of actually coming up with a deflection and the cost 
of actually making the determination of what is heading in our 
direction? Dr. Holdren, or do any of you have estimates of 
cost?
    General Bolden. Mr. Rohrabacher, I can give you an estimate 
right now. We do it incrementally so we believe we have to 
detect and characterize first and then we have to concern 
ourselves, as Dr, Holdren says, with who is going to do the 
mitigating action or the deflection action. We have two 
concepts. One is about three-quarters of a billion dollars for 
an infrared-based sensor that is placed in space, something 
that orbits Venus or at least is in geosynchronous orbit. B612, 
that I mentioned, their estimate for their effort is about a 
half a billion dollars, about $500 million dollars. So we are 
roughly in that range.
    Mr. Rohrabacher. Is that just for that one sensor that we 
are talking about?
    General Bolden. That is just for--to try to put something 
in space that will help us to identify and characterize. I 
think all three of us agree, ground-based systems are great, 
Arecibo and others, but if you really want to find and detect 
asteroids, near-Earth objects early enough that we can do 
something, then you want that vehicle----
    Mr. Rohrabacher. And the cost is?
    General Bolden. I gave you an example of two. I will take 
it for the record to get back to you. I think what you are 
asking for is a lifecycle cost for a program to mitigate.
    Mr. Rohrabacher. Right.
    General Bolden. I don't think any of us have--we have not 
developed that.
    Mr. Rohrabacher. Well, it is in the billions of dollars, 
correct?
    General Bolden. Oh, yes, sir.
    Mr. Rohrabacher. Okay.
    General Bolden. You know, if one detection device is almost 
a billion----
    Mr. Rohrabacher. Now, let me suggest that perhaps the 
billion dollars, and that would provide protection for not just 
the United States but for the world.
    General Bolden. Sir, anything we are talking about--this is 
not--as you pointed out, this is not an American issue. 
Anything that we do protects the planet. Anything that our 
international partners do protects the planet, and that is why 
you hear me talk all the time about the critical importance of 
international collaboration.
    Mr. Rohrabacher. That is what I want to ask you about on 
this. What steps have we taken to bring countries together that 
could contribute those billions of dollars as well as our own?
    General Bolden. Well, the U.N. Organization for Peaceful 
Cooperation of Space, U.N. COPUOS, has a very active ongoing 
activity and trying to help bring nations together and looking 
at detecting and tracking NEOs. We are a participant in that.
    Mr. Rohrabacher. There is not just one organization that is 
aimed specifically or--when was the last meeting of groups of 
people who represent countries that might want to get involved 
and contribute and have an overall part?
    Dr. Holdren. Congressman Rohrabacher, I can take that one. 
There was a meeting in Vienna in mid-February of this year just 
a month ago under the auspices of the U.N. Committee on 
Peaceful Uses of Outer Space. It was agreed there to stand up 
an international asteroid warning network and to stand up as 
well an international body that would deal with the mitigation 
question. There is already underway something called AIDA, the 
Asteroid Impact and Deflection Assessment, which is a joint 
effort of the European Space Agency and NASA, and I should add 
that the detection network that we already have is highly 
international in character. As Administrator Bolden mentioned, 
it was actually a Spanish observer who first discovered the 
asteroid that made the near miss on February 15. The Minor 
Planet Center, which is in substantial part funded by NASA and 
hosted by the Harvard-Smithsonian Astrophysical Observatory, is 
actually under the overall auspices of the International 
Astronomical Union, so it is all very international.
    Mr. Rohrabacher. I would suggest that number one, the cost 
of deflection of course, we are talking about the cost of 
detection, in one situation, the cost of having a deflection 
system is even more. I would suggest that this is one area of 
leadership that the United States could really take a role in 
and it would be good for all and it would create an 
international spirit of what we want to create. I would suggest 
especially including Russia in on this, and they may be able to 
make some major contributions, save us some money and actually 
make it a more effective system.
    And with that said, I would like to include all countries 
except China. Thank you.
    Chairman Smith. Thank you, Mr. Rohrabacher. The gentlewoman 
from Maryland, Ms. Edwards, is recognized.
    Ms. Edwards. Thank you, Mr. Chairman.
    I want to ask Dr. Holdren, the National Science Foundation 
has indicated a next major new start as the Large Synoptic 
Survey Telescope, the LSST, which is intended to detect and 
catalog potentially hazardous objects, and what I would like to 
know is, one, what the technological contribution would be if 
the LSST were to make the overall detection and cataloging 
effort possible, and General Bolden, you talked about the 
prospect of land-based systems versus systems that we would put 
outside in our solar system, but the cost, to me, it seems 
would be rather significantly different. And then I would like 
to have some understanding of whether there might be some cost 
sharing that NASA might consider with improvements to the LSST 
to try to optimize it for NASA's use, and get a sense as well 
of whether the challenges that we are facing and not meeting 
the 2025 deadline that--guideline that we have highlighted from 
the Committee. Are those technological challenges principally? 
Are they funding challenges? Is it some combination of 
cooperation challenges? I would like to better understand that, 
especially in this fiscal environment.
    Dr. Holdren. Well, let me just make a start and then I will 
turn it over to Administrator Bolden. The Large Synoptic Survey 
Telescope would be an important addition to our capabilities 
but it is important to understand that all these capabilities 
work in tandem, that is, they share information. Some of the 
telescopes are better at detection. Others are better at 
characterizing the orbit or determining the reflectivity and 
the likely composition of the object, and so one always has to 
think of this as a network. We have telescopes in Arizona, we 
have telescopes in Italy, we have telescopes in the Czech 
Republic, and they are all linked together and they are all 
part of a network that provides the overall capability we have 
to detect these objects. The LSST alone when it comes fully to 
fruition would still not be able to enable us to identify and 
characterize 90-plus percent of the objects in less than about 
a dozen years. But in combination, the LSST and an orbiting 
infrared telescope of the kind Administrator Bolden was talking 
about could lower that time to something in the range of 6 to 8 
years.
    General Bolden. Congresswoman, the only thing I will add, 
you know, we flew an infrared imaging satellite called WISE, 
and then we repurposed it while on orbit to look for asteroids, 
and we discovered hundreds in the deep field of the solar 
system, the universe, actually. It is that type of instrument 
that I talk about. That is what B612 wants to do. We are 
looking at ways to cost-share. The nucleus organization that 
Congressman Rohrabacher mentioned involving Russia, the 5-
member organizations of what we call the International Space 
Station team, and that is 15-plus European nations, Russia, 
Japan, Canada and the United States, although our primary 
responsibility is operating the International Space Station, 
when the heads of agency get together, we talk about 
everything, and one of the big things we talk about is the 
threat of near-Earth asteroids.
    At risk of getting in trouble because Congressman 
Rohrabacher and I have a healthy agreement to disagree, and I 
will say this, it will be the decision of this Congress as to 
whether or not we ever cooperate or participate with China. It 
is the elephant in the room. I don't talk about it because my 
public affairs and communications people tell me not to talk 
about it, but I don't deal with China by direction of this 
Congress. We are the only agency of the Federal Government that 
does not have bilateral communications with China. This is an 
issue for the world. This is not an issue for the United 
States, so although Congressman Rohrabacher and I----
    Ms. Edwards. Well, I will let Congressman Rohrabacher take 
his time talking about China, and I am sure we could have a 
whole hearing on it. Before we go, though, I wanted General 
Bolden to--you know, the whole identified mission that the 
President has set out to go to an asteroid, it seems rather 
lackluster, and so I have always had questions about whether 
ought to be a goal or we ought to think about, you know, sort 
of the tradeoff, Mars, instead. Thank you.
    Chairman Smith. Thank you, Ms. Edwards. The gentleman from 
Texas, Mr. Hall, chairman emeritus, is recognized for his 
questions.
    Mr. Hall. Mr. Chairman, of course I thank you for holding 
this very important hearing, and I thank the witnesses for 
their very valuable testimony.
    I had the privilege of serving on this Committee since 
1981, and this topic has been the subject of periodic review 
and legislative direction, as the witnesses noted, in the 1990s 
during consideration of a NASA authorization bill. This matter 
came up, and it was really a discussion about asteroids. We had 
really a hearing on asteroids, as Mr. Rohrabacher remembers, 
and it was reported at that time that one had just passed the 
Earth that no one knew anything about but it missed us by 15 
minutes. I hated to ask, was that just as good as it missing us 
by 1 minute or 30 seconds or what, but just the enormity of the 
damage that they could do to us. I offered an amendment at that 
time to set a goal of finding and cataloging within 10 years 
this population of comets and asteroids in an effort to be 
coordinated with the Department of Defense and space agencies 
of other countries. Other countries were invited to that 
hearing, but also told that we ought to have a world group 
because as Charlie said, it is a world problem. They were 
interested in attending but they weren't interested in 
contributing anything to it, so none of them showed up for the 
hearing.
    But as our witnesses stated, from 1998 until 2011, more 
than 90 percent of near-Earth objects with a diameter of 1 
kilometer or greater have been located. So today we know more 
about these but we also have more work to do, especially those 
that are smaller that could still have a devastating impact if 
they hit the Earth.
    So Dr. Shelton, let me ask you this. What capabilities do 
we need that we don't currently possess to detect and track 
asteroids that might pose a threat to the Earth?
    General Shelton. Sir, if you are talking about Department 
of Defense capabilities----
    Mr. Hall. What do we have to do? What should we do?
    General Shelton. Well, if you are talking about Department 
of Defense capabilities, we are focused on things in Earth 
orbit. Our sensors, and we have got a variety of them, are not 
focused on beyond the Earth.
    Mr. Hall. Well, once an object has been identified, what 
are our means of tracking it and how much time would we have to 
prepare if there were a threat to Earth?
    Dr. Holdren. Maybe I can take that, Congressman Hall. First 
of all, how much notice we have depends on the size of the 
object. The bigger it is, the further away we can see it and 
the more time we have. So there are some objects that we know 
are coming years in advance. There are other objects that are 
still big enough to cause damage that we only know about weeks 
in advance or days in advance. Obviously, we need to improve 
the capability to give us a large amount of notice, enough 
notice to mount a deflection mission if we see one on a 
collision course. Some of the capabilities we have been talking 
about, the Large Synoptic Survey Telescope, the orbiting 
telescope that the B612 Foundation is working with NASA to 
develop, all those capabilities will increase the warning time 
with respect to asteroids big enough to do serious damage. And 
again, the deflection options that would then be open to us 
would depend on the size of the object and the amount of notice 
we had. They would include----
    Mr. Hall. Well, excuse me. The one that hit Russia, there 
is no question about that, and that is about all we know about 
it, why didn't we know that was coming or on its way?
    Dr. Holdren. It came out of the sun, Congressman Hall. It 
came from a direction where our telescopes could not look. We 
cannot look into the sun.
    Mr. Hall. Well, if we can't make that determination as to 
where it is going to come from, we ought to be able to do 
something no matter where it comes from if it is going to hit 
the Earth.
    Dr. Holdren. That is one of the reasons that an orbiting 
telescope----
    Mr. Hall. That is why we are having this hearing today to 
ask you three men who know a heck of a lot more than we know 
about it to tell us.
    Dr. Holdren. Well, I would say, Congressman Hall, that the 
most important single thing we could do to improve our capacity 
to see any asteroid of potentially damaging size coming would 
be an orbiting infrared telescope of the sort that the B612 
Foundation is working on.
    Mr. Hall. I thank you. I asked the question, if we saw one 
come toward Omaha, what could they do about it, and they said 
they could use a laser, and I went on and asked a second 
question. I said, well, could the laser hit it right in the 
middle because I didn't want to cause any more trouble than I 
had with Mr. Rohrabacher. I wasn't going to suggest that half 
of it hit Los Angeles and the other half hit New York. I 
suggested that half of it might go to the Pacific Ocean and the 
other half go to the Atlantic Ocean. They really didn't have an 
answer for that, and I doubt if you have.
    Dr. Holdren. Well, first of all, it would not be practical 
to have a laser powerful enough to split it in half. What you 
can do in principle if you have a very powerful laser is to 
cause jets of material heated by the laser to fly off of the 
asteroid and that is essentially the equivalent of a jet engine 
pushing the asteroid off course. There are other approaches to 
deflecting an asteroid. Those include hitting it with a very 
heavy impacter. They include approaching it, as we have already 
approached with robotic probes a number of asteroids and 
pushing it or towing it.
    Mr. Hall. I thank you, and I will write you a letter for 
some more, and thank you. I yield back my time.
    Chairman Smith. Thank you, Mr. Hall. Those were interesting 
answers, Dr. Holdren. I appreciate that.
    The gentlewoman from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you all for your interesting testimony.
    It has been well established in this testimony that the 
probability of an occurrence of a sizable NEO colliding with 
the Earth is quite small. I believe, General Bolden, you said 
extremely remote in your testimony. But it is also clear that 
the consequences could be enormous. For example, a strike, 
depending on the size of an asteroid, could bring a cloud of 
dust rivaling the most powerful volcanic explosion, or 
depending on where it hits could cause an enormous tsunami that 
would flood and destroy coastal regions. And I know you are all 
striving as we are to find the appropriate balance for 
investment without being unnecessarily alarmist.
    In the district--back to where it hits. In the district I 
represent in Oregon, there is a significant threat of a 
tsunami, especially from earthquakes. That is very real. 
Response preparedness is already a priority issue for my 
constituents. In fact, when I was in the legislature, we passed 
a bill that required the State to plan for the impacts of a 
9.0-magnitude earthquake and a resulting tsunami, which 
scientists had determined would occur, will occur at some point 
in the future, so it is not planning for if, it is planning for 
when. And the State just released its resilience plan, which 
was partially funded through a FEMA grant, in February. The 
plan acknowledges the importance of preparing communities and 
infrastructure for a catastrophic event but it also places 
significant focus on the ability to respond once the event has 
occurred.
    And of course, this type of challenge has implications in 
the context of today's conversation. How much do we plan for 
detection, how much do we plan for response? Of course, we 
should be investing in the science that will help us detect and 
prevent the impacts of NEOs but we also need to consider how we 
will respond if it not possible to alter the orbits and stop 
these NEOs from colliding.
    Dr. Holdren, your 2010 report indicates that depending on 
the projected damage and location, FEMA could help provide 
Federal assistance and coordinate local emergency services 
personnel into integrated disaster response task forces. So 
could you talk a little bit more, please about how FEMA is 
approaching this role? How will they take into account 
different demographic and geographic characteristics in any 
given area? Thank you.
    Dr. Holdren. Wow, that is a really challenging question. 
You know, as we know, FEMA has a wide range of capabilities for 
responding to a wide variety of different kinds of emergencies 
and disasters. We are in the process, as I mentioned, of 
conducting exercises of various kinds in which FEMA is a 
participant, and thinking about and trying to work out the 
details of response strategies, depending on the nature of the 
impact, but as your question points out, those impacts could be 
very different. If a large asteroid strikes the ocean, as you 
point out, the impacts would largely come through the tsunami 
phenomenon, which is of course a phenomenon with which FEMA 
must also reckon since tsunamis can be caused in other ways. If 
a strike occurred over an urban region with sufficient force, 
the damage would resemble in some ways the damage from a 
massive earthquake, which is another event with which FEMA is 
familiar and prepared to respond. But these are going to be big 
challenges. I would not minimize the difficulty of responding 
adequately if a substantial asteroid strike should occur in the 
size range that we need to be particularly worried about.
    Ms. Bonamici. And so what efforts are being made to engage 
the existing emergency response infrastructure?
    Dr. Holdren. Well, as I say, we are actually exercising 
those with tabletop exercises and with larger-scale exercises 
in which the various agencies go through a simulated event of 
this kind, and those kinds of exercises are really the best way 
we have when combined with analytical tools to figure out how 
to bring our capabilities effectively to bear.
    Ms. Bonamici. Thank you very much.
    And either General Bolden or General Shelton, do you have 
any comments about finding that balance between preparing for 
detection and preparing for how we respond?
    General Bolden. Congresswoman, I would just echo what you 
said. You hit the right word, and that is balance. You know, we 
could come out of this hearing and decide that we want to 
really pour money into NEO detection and characterization, and 
that would not be the right thing to do because there has to be 
a balance. My recommendation would be the President's budget 
from 2013, I think was pretty good. We have a plan that Dr. 
Holdren talked about but it depends on the passage of that 
budget. Going into 2014, we will come back again and try to 
give you what we see as a funding level to support a plan that 
Dr. Holdren addresses. So that is where we have to cooperate, 
Congress and the Administration, in striking that proper 
balance.
    Ms. Bonamici. Thank you very much. My time is expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici. The gentleman from 
Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Thank you, Mr. Chairman.
    Reading from Dr. Holdren's testimony, it says ``Depending 
on its composition and velocity, an asteroid of 140 meters in 
diameter could have an impact energy in the range of 50 to 500 
megatons of TNT equivalent and would be capable of causing 
destruction over a large region,'' emphasis there 50 to 500 
megatons, and I have got other notes here that suggest that the 
Hiroshima atomic bomb was roughly 13 kilotons, so much, much, 
much, much smaller. If you could, could you please describe 
with greater detail what you mean by a ``large region''?
    Dr. Holdren. The size you are talking about, 140 meters, 
and you have got the numbers exactly right, could devastate the 
better part of a continent.
    Mr. Brooks. We are talking about a very large region.
    Dr. Holdren. The fortunate--the only fortunate thing is 
that the estimated frequency with which objects of that size 
strike the Earth is about one in 20,000 years, or a probability 
of one in 20,000 each year. Nonetheless, this falls directly in 
the category that we were talking about, low probability, very 
high consequence, therefore we need to take the risk seriously 
and we need to make the kinds of investments that would enable 
us to deflect an asteroid of that size were one to be 
discovered on a collision course.
    Mr. Brooks. And you also used the word ``destruction'' in 
the context of this continent-sized area. Would human life be 
able to withstand that kind of impact and the way in which you 
use the word ``destruction''?
    Dr. Holdren. Well, clearly, if an asteroid of that size 
struck on land, there would be very large loss of life. If it 
struck in the ocean, it would produce, in all likelihood, a 
very large tsunami, which would be associated with large loss 
of life. If you say would humans survive on the Earth, the 
likelihood is yes. But there are concerns about the amount of 
dust and smoke that could be lofted into the atmosphere by such 
an impact.
    Mr. Brooks. Do you have a judgment as to whether humans 
would survive on the continent impacted, if you limit it just 
to the impact continent?
    Dr. Holdren. No, I believe the answer is yes. Is aid a 
substantial part of a continent. A bigger one, bigger still 
than 140 meters, could be a continent destroyer, and a bigger 
one still could be a civilization destroyer. You know, the one 
that hit 65 million years ago near what is now the Yucatan 
Peninsula is thought to have led to the extinction of the 
dinosaurs and most else that lived on Earth at the time.
    Mr. Brooks. And if I read your written testimony correctly, 
that was roughly 10 kilometers estimated size?
    Dr. Holdren. Yes.
    Mr. Brooks. Moving on, looking at the notes that I have 
been given by the HASC Committee, it suggests that we have 
identified so far thousands of objects in space, near-Earth 
objects in space, that are 300 to 500 meters in diameter, 
roughly 1,100, 1,200 that are roughly 500 to 1,000 meters in 
diameter, and roughly 900 that are a kilometer or more in 
diameter. So what I would like to know is, how much advance 
warning would the Earth's population need if, say, one of these 
kilometer or larger size objects for us to be able to do 
something to prevent that object from hitting the Earth and 
causing the kind of massive devastating that you have 
described?
    Dr. Holdren. Today, we would probably need years to mount 
such a mission. Over time, as we develop our capabilities to 
deal with this kind of threat, the lead time could be smaller.
    Mr. Brooks. Let me focus in on that. How many years would 
we need? Let us say we found out today that there is an object 
of this size that is going to hit the Earth. How many years 
would we need today if we were to do whatever is necessary to 
try to put ourselves in a position to save the planet?
    Dr. Holdren. I think I will refer that question to General 
Bolden.
    General Bolden. Well, if we did it according to the 
President's budget presently, 2025 is the time that we think we 
will be able to send a human to an asteroid acting with some 
robotic means. That is on----
    Mr. Brooks. Let me interject for a moment. Let us assume 
that we know one is going to hit the planet, in which case I 
assume that we are going to accelerate things as quickly as we 
can. What is the fastest we can get it done where we could 
protect ourselves upon discovery of a 1-kilometer or larger 
object going to hit the Earth?
    General Bolden. Congressman, I will take it for the record 
and get back to you, but now you are talking about an intense 
effort, which, I mean, that significantly shortens the time.
    Mr. Brooks. Well, we would be intense.
    General Bolden. We have the systems and the technology 
available now to do that. You are talking about just pouring 
unlimited funds into it, and conceivably you could do it in 4 
or 5 years. I don't know. But let me get back to you. Don't 
quote me on a number yet. But, I will work with General Shelton 
and his captain and, seriously, we will get you an answer.
    Mr. Brooks. Well, thank you for being here and testifying 
before us. Thank you, Mr. Chairman, for the time that you have 
allotted, and whatever time that is, I would love to help you 
shortening it.
    Chairman Smith. Thank you, Mr. Brooks. The gentleman from 
California, Mr. Swalwell, is recognized for his questions.
    Mr. Swalwell. Thank you, Mr. Chairman, and thank you, 
Ranking Member Johnson.
    General Bolden, I represent Livermore, California, which 
has two of the NNSA labs, Lawrence Livermore and Sandia, and I 
imagine that when you talk about systems and technology, and if 
we were to require a weapon to deflect something that was 
incoming, a near-Earth object that was incoming, that some of 
that technology will have to be or has been designed at one of 
those laboratories.
    General Bolden. So if that a question----
    Mr. Swalwell. Yes.
    General Bolden. If that were the decision, but again, I 
would go back to what Dr. Holdren said earlier. I would not 
consider a weapon to deflect or to save Earth against this type 
of threat. I would consider the development of appropriate 
technologies that could enable us to--we are talking about 
earliest detection, you are talking about deflecting. I mean, 
it is a tiny amount if you catch it far enough out.
    Mr. Swalwell. Let us assume that it is late-stage 
detection. I imagine our choices get limited, right?
    General Bolden. Yes, sir. That is not my bailiwick anymore. 
I don't do bombs and rockets.
    Mr. Swalwell. Well, General Shelton, those two laboratories 
in my district, I imagine they would play a critical role if we 
had a late-stage detection of one of these near-Earth objects.
    General Shelton. Yes, sir, I would think so. I mean, there 
are only a limited number of ways to generate the amount of 
energy required and probably nuclear energy is what we are 
talking about here.
    Mr. Swalwell. Is there a way to guarantee that one of these 
near-Earth objects does not hit on a Friday? Because right now 
in my district, all of the Federal employees at those 
laboratories are furloughed on Fridays. And I know in 
Congresswoman Edwards' district, some of those NASA employees 
that are trying to detect these incoming objects, I think they 
are going to be furloughed on Fridays too. So----
    General Bolden. No, sir.
    Mr. Swalwell. No way to----
    General Bolden. We are not planning to furlough employees. 
I just wanted to clarify that. So they will be there on Friday.
    Mr. Swalwell. Okay.
    General Bolden. But in seriousness, I have to go back again 
to say several things. One, these are remote occurrences. Two, 
the plan that the President has put forward I think will 
adequately address our technical capability to be able to 
deflect an asteroid in due time. If we find that we are 
tracking literally thousands of asteroids today. If the 
civilization destroyer that Dr. Holdren talks about, I mean, if 
we can't discover that early enough, then there is something 
wrong with our systems.
    Mr. Swalwell. Sure. So in our district, it is a fact: there 
are furloughs at our nuclear laboratories, and you are not 
concerned at all that sequestration affects our readiness to 
protect----
    General Bolden. Sir, that wasn't the question you asked.
    Mr. Swalwell. So my question is----
    General Bolden. I am very concerned with the effects of 
sequestration but that wasn't the question, and so yes, I am 
very concerned about the effects of sequestration on all of our 
ability to do what it is you ask us to do. You are talking 
about impacting our ability to keep our facilities operating 
safely. You are talking about just the mental strain on our 
employees not knowing whether they are going to be able to come 
to work tomorrow. I try to assure them every time I can that I 
am not planning to furlough anybody, but they know better than 
I do that the Congress could take some action and all of a 
sudden the Administrator doesn't have a clue what he is talking 
about because now I have got to lay people off. My intention is 
not to do that. If your question is, is there a bad effect of 
sequestration, yes, sir.
    Mr. Swalwell. That is my question.
    General Bolden. Yes, sir.
    Mr. Swalwell. How about for General Shelton?
    General Shelton. I will tell you, sir, just about my every 
waking moment these days is based on this topic. I just pulled 
the trigger on $508 million of reductions in just my major 
command alone from now until the end of the fiscal year, a 20 
percent cut in pay to my civilians. There are resources that 
are used for missile warning and missile defense that we won't 
be able to operate at full capability. There are things that we 
use for space surveillance that we won't be able to operate at 
full capability.
    Mr. Swalwell. And General, do you think that makes us more 
or less prepared to handle a near-Earth objects?
    General Shelton. That is not what we do. That is NASA's 
responsibility. We contribute serendipitously at times but we 
are focused on things in Earth orbit.
    Mr. Swalwell. So if you had to focus on something in Earth 
orbit, would it make you more or less prepared having to have 
these across-the-board cuts?
    General Shelton. We are clearly less capable under 
sequestration.
    Mr. Swalwell. Great. Thank you, Mr. Chairman. I yield back 
the balance of my time.
    Chairman Smith. Thank you, Mr. Swalwell. The gentleman from 
Florida, Mr. Posey, is recognized for his questions.
    Mr. Posey. Thank you very much, Mr. Chairman, and thank all 
three of you for your very detailed written testimony. You use 
a lot of facts that I frequently refer to that clearly indicate 
it is not a matter of if but when civilization will be 
threatened by an impact. Until the recent Russian impact, quite 
a few people thought those of us who were even aware of this or 
dared mention it were on the kooky side, and so one good thing 
about that is maybe a little bit of a wake-up call to reality 
for some people.
    Dr. Holdren, your testimony referred to the first-ever 
exercise, deflection exercise. I wonder if you could just share 
a little bit with us about how that went.
    Dr. Holdren. I am not--the first-ever deflection exercise 
was a kinetic impact on an asteroid of medium size, which while 
interesting from the standpoint of the deflection it generated 
did not reflect the magnitude of the capability you would need 
for a late-notice deflection of an asteroid of threatening 
size. It was an interesting demonstration.
    One of the things I would like to reinforce is that the 
President's proposal to land U.S. astronauts on an asteroid by 
2025 will in fact exercise a number of the capabilities that 
would be necessary to have in our toolbox should an asteroid of 
threatening size be detected on a collision course. I would 
disagree with something Congresswoman Edwards said, that this 
is a lackadaisical program. I think it is a crucial program, 
and I think it is going to lead to major advances in 
capabilities which are not just interesting to demonstrate at a 
small scale but not enough to deal with a real threat.
    Mr. Posey. Thank you. And I took her comment to mean she 
thought the approach to it might have been lackadaisical, not 
that it wasn't necessary, you know, for whatever----
    Ms. Edwards. For the record, I didn't say that word.
    Mr. Posey. Okay. Now, the Ranking Member asked about 
protocol, you know, who is in charge, and we got about three or 
four minutes of a chatter but we never got an answer about who 
is in charge, and so rather than asking for a response, I would 
just like to recommend that the next time that you all come 
before us you give us a protocol and say this is who is in 
charge here, here is in charge here and here is in charge here, 
and it is just a very clear matter of protocol who is in charge 
in various instances, you know, as being preordained and 
preestablished.. I know you are going to corroborate and, you 
know, get this stuff done if we have an impact, but a good 
segment of the population thinks it is just a matter of calling 
Bruce Willis in, you know, and notwithstanding we don't have a 
shuttle anymore, you know, it is impossible. But things that 
beg for an answer, you know, scary of course, that we only know 
about 10 percent of the huge threats and we virtually have no 
idea of the small threats like the one that went undetected, 
the recent impact in Russia. You know, what would we do if you 
detected even a small one like the one in Russia headed for New 
York City in three weeks? What would we do? Bend over and what?
    General Bolden. No, Congressman, I have to go back to what 
I said before. These are very rare events. From the information 
that we have on asteroids that we have discovered of all sizes, 
we don't know of one that will threaten the population of the 
United States in three weeks, and we are trying very diligently 
as I said before with the President's budget to put ourselves 
in a position where we advance the technologies so that three 
weeks will not be something that causes us to panic because we 
will be able to respond.
    We are where we are today because you all told us to do 
something, and between the Administration and the Congress, the 
bottom line is always the funding did not come, and I don't 
care whose fault it is or if it is anybody's fault. We all know 
what we are facing today and we are all sitting here today as 
the Congress and the Administration try to figure out 
sequestration, something that never should have happened. 
Nobody planned it to happen but we are facing it today. And so 
the answer to you is, if it is coming in three weeks, pray, if 
we find that out right now. And that is not bad policy.
    Mr. Posey. That is reality.
    General Bolden. I am a practicing Episcopalian and I love 
what the Pope is doing right now. I will tell you, things have 
happened. You have got to pray.
    Mr. Posey. The upside, I guess, is that there is more 
public awareness now of the importance of space to the survival 
of our species and it is not at some unknown point in the far-
distant future that we can imagine.
    General Bolden. And sir, if I may, you said something that 
is so important. It would be very easy for this Congress and 
for the Administration to say--because we get the question all 
the time, why are we worried about exploring beyond low-Earth 
orbit, can't we just put that off for 5 or 10 years. The reason 
that I can't do anything in the next three weeks is because for 
decades we have put it off for the next 5 or 10 years. We don't 
have contractors who go away from doing their job and then 5 
years from now we call and say okay, we want to build a rocket. 
They will tell me, with whom; we don't do that anymore. All 
those guys went over and they are now selling pizza, and I am 
not being facetious when I say that. And I apologize. You cause 
me to lose my temper sometimes when I--this is really 
important.
    Mr. Posey. Yes, it is.
    General Bolden. And it has to be continuous. The President 
has a plan but that plan is incremental, and we can not like 
him, we can not agree with him, we can not do a lot of things. 
It is the best plan we have, and if we want to save the planet, 
because I think that is what we are talking about, then we have 
to get together, that side and that side, and decide how we are 
going to execute that plan as expeditiously as possible. That 
is all I can tell you.
    Mr. Posey. Thank you.
    Chairman Smith. Thank you, Mr. Posey. The gentleman from 
California, Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    This use of the term ``civilization threatening'' or 
``civilization destroying'' asteroids, remind me at what size 
would we say such an asteroid would be?
    Dr. Holdren. A 1-kilometer asteroid would be carrying 
energy in the range of tens of millions of megatons. That is as 
much or more energy as was in the combined arsenals of the 
United States and the Soviet Union at the height of the Cold 
War. An asteroid of that size, a kilometer or bigger, could 
plausibly end civilization. Nobody has the detailed models, the 
ability to calculate and detail, to tell you exactly what the 
threshold is, but when you are talking about tens of millions 
of megatons of explosive energy, you are putting civilization 
at risk.
    Mr. Takano. And I am hearing that we are relatively 
optimistic that we can develop systems at the right price 
points to be able to detect asteroids of this size with a 
sufficient amount of lead time to be able to do something about 
it.
    Dr. Holdren. That is the size range where we have already 
detected something in the range of 93, 94 percent of the 
asteroids of that size range that could come close to the 
Earth, and in that size range, we can be reasonably assured, 
especially as we make these additional investments going 
forward, of being able to detect them with quite a lot of 
notice.
    Mr. Takano. Let us scale it down to medium- to large-size 
city-destroying asteroids. What size would those be?
    Dr. Holdren. A city-destroying asteroid could be in the 
range of 50-meter diameter carrying an energy in the range of 5 
to 10 megatons.
    Mr. Takano. What sort of systems would we need to be able 
to detect that? You talked about more assets in our orbit, 
telescopes of that kind including those that could get around 
the issue of the sun.
    Dr. Holdren. We would want the infrared telescope in an 
orbit resembling that of Venus. It could be a Venus trailing 
orbit following the planet around, the planet Venus, which 
again is what the B612 Foundation is in fact working on. As 
Administrator Bolden mentioned, we actually had an experiment 
with an infrared telescope that was built for an orbiting 
telescope built for a different purpose. It is very good at 
finding asteroids.
    Mr. Takano. We spoke a lot about the cooperative nature of 
what would need to happen, nations coming together, but would 
there be also rivalrous kinds of impulses which might divide 
us? In fact if we were to detect objects of this size, would 
nations also be concerned about that impacting the ability to 
detect missiles, for example?
    Dr. Holdren. I think these are very different capabilities. 
As General Shelton mentioned, going into detail about our 
missile-detecting capabilities would require a different forum, 
but they are quite different in nature from the capabilities we 
would need to detect and track asteroids.
    Mr. Takano. Well, the chairman raised a question that I 
thought was rather interesting, did none of our current 
missile-detecting capabilities, did they fail to be able to 
detect the most recent asteroid, and you may not be able to 
answer that question.
    General Shelton. I can. We did detect it, and as I said, it 
was at the time. It wasn't predicted. It was detection at the 
time.
    Mr. Takano. So the missile detection capacities we have now 
I mean really are kind of--they are more in real time as 
opposed to time that we might be able to remediate the problem?
    General Shelton. Yes, sir, and focused on two things. The 
infrared signature coming out the back end of a missile, we see 
that, and as soon as it either breaks the ground, if there is 
weather overhead, as soon as it breaks the clouds, we will see 
that. We will be able to tell you what type of missile it is. 
We will be able to tell you where that missile is going. We 
will be able to tell you where it is going to impact. So very 
solid missile-warning capabilities. Those infrared sensors can 
be used for other things but they can't be used for predictive 
things out beyond Earth orbit.
    Mr. Takano. Mr. Chairman, I am out of time. Thank you so 
much.
    Chairman Smith. Thank you, Mr. Takano. The gentleman from 
Arizona, Mr. Schweikert, is recognized.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Just because I want to get my head around and try to really 
understand some of the base-level approach here, and Doctor, I 
was going to ask you first, and forgive me if I am equating a 
statement to you that was in someone else's opening statement. 
A dangerous interaction, Earth and an object, was the statement 
one-out-of-a thousand-year event?
    Dr. Holdren. The one-in-a thousand-year event is the one of 
the magnitude that hit over the Tunguska, the asteroid impact 
over Siberia in 1908, and that was a 15-megaton class event. 
That is characteristic of one in a thousand years. The 
dimension of that asteroid was somewhere in the range of 50 
meters.
    Mr. Schweikert. Now, if I remember my old modeling classes, 
when you start getting into something with that far out in 
detail, you know, it is like the person that says it is a 500-
year flood except we had three of them in the last 10 years, 
because you have such--your degree of confidence, your noise in 
that just becomes--it blows off the chart. So we always like to 
say one in a thousand but it is one in a thousand with, you 
know, a 20 percent lack of confidence. Does that sort of math 
also work for this?
    Dr. Holdren. Well, I would say certainly there is a lack of 
confidence of that size or greater but the real catch is that a 
one-in-a-thousand-year event can occur at any time. The fact 
that on average one only expects these to happen once in a 
thousand years doesn't mean that one won't happen next year.
    Mr. Schweikert. Often when we talk to certain non-
statistical people, you try to explain that you can have the 
three 500-year floods in 10 years and then go 1,500 years 
without something.
    Okay. In the discovery of objects out there, how much are 
you finding is coming from the amateur astronomy community? I 
mean, if I remember correctly, you were telling me that--was it 
the gentleman--was it an amateur in Spain that saw the last 
one?
    Dr. Holdren. I am not sure it was an amateur.
    General Bolden. I don't know that it was--we can find out 
whether it was an amateur astronomer. We just know it was an 
astronomer in Spain that made the discovery on 2012 DA14.
    Mr. Schweikert. Is there--how formal or informal is that 
network out there of university amateurs, governmental 
astronomers, you know, scouring the skies, seeing things, 
reporting them? How does that mechanism work?
    Dr. Holdren. It is actually quite organized, quite formal 
and quite fast. That community of folks stay in constant 
communication.
    Let me take this opportunity to recommend a book, because 
it is not mine, a book by NASA's head of the near-Earth Object 
Identification program, Dr. Donald Yeomans. It just came out 
this year, 2013. It is called Near-Earth Objects: Finding Them 
Before They Find Us. Nice title. And he talks at great length 
about these networks, about the roles of amateurs, about the 
roles of professionals, who discovered what.
    Mr. Schweikert. You are beating me into where I was 
actually trying to go. Is there a way to take that network and 
incentivize it? I have a great interest in sort of distributive 
information, distributive networks, so lots of smart people all 
over the world with this their hobbies, and is there a way--
should we be incentivizing that?
    Dr. Holdren. That is a great question, and we in OSTP are 
greatly in favor of crowdsourcing. We are greatly in favor of 
putting challenges out there, and in fact----
    Mr. Schweikert. You and I are about to become really good 
friends.
    Dr. Holdren. And these challenges we already know. We have 
used them across a domain of interesting problems, and I think 
there is no doubt we are going to have a challenge around 
asteroid detection.
    Mr. Schweikert. And it is not answerable in 20-some 
seconds, but part of that is, okay, we see something. How far 
in advance with current technology do you have to see something 
to analyze, determine, you know, threat assessment and then 
react to it?
    Dr. Holdren. The analysis and threat assessment is pretty 
fast because once you see it, you can train on it various other 
instruments--the radio telescopes, optical telescopes, and use 
the combination of information available from them once they 
know where to look in the sky to characterize its trajectory 
and determine whether or not it is a threat. The long-time 
scale, the long pole in the tent, is deploying the capability 
to deflect one that you discover is on a collision course, and 
that is the issue where currently we would have to say the time 
scale is in the range of years, and I think Administrator 
Bolden suggested that he would get back to the Committee on 
that, but I think his estimate, his initial estimate, is 
certainly reasonable. Even throwing a lot of resources at it, 
you would be talking 4 or 5 years to mount a deflection 
mission.
    Mr. Schweikert. Mr. Chairman, thank you for your patience.
    Chairman Smith. Thank you, Mr. Schweikert. The gentlewoman 
from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you very much, Mr. Chairman.
    I too share some of the interest in this sort of 
crowdsourcing, and would just flag, since we have already had 
some hearings on big data, to perhaps follow up at a later time 
to think about what opportunities there are in other areas. We 
are also looking at the data side and how we might be able to 
collaborate on this worldwide problem, and I think that is very 
important.
    For General Bolden, if you could talk a little bit about 
what NASA's procedure is for actually notifying our Federal 
agencies? You get notice of a NEO. What do you need to know? 
What triggers a notification warning and how does that actually 
work?
    General Bolden. Congresswoman, there are several 
organizations we notify. We notify the State Department, first 
of all, because they notify our international partners that 
there is an incident, and this is not just for asteroids. This 
would be for a satellite that has fallen back to Earth or 
something, and we have had to exercise that several times over 
the last two years. The first person I would notify would be 
Dr. Holdren as the President's science advisor, and going back 
in response to Mr. Posey's question, there is no question in my 
mind who is in charge, and I go to Dr. Holdren because he pulls 
the team together, whether it is DOD or NASA and everyone else, 
but I understand the thrust of the question. So we would notify 
other Federal agencies, FEMA, the State Department, and then go 
from there. And it is scenario dependent. It depends on what 
the characterization of the asteroid or the NEO happens to be. 
Sometimes it is just a matter of saying hey, we now have 
something else that has been added to the inventory, it is not 
an Earth-threatening orbit, and we do that.
    Ms. Esty. Could you talk about whether there is an 
organized international warning network, or should there be? Is 
this something that is again scenario dependent or is there an 
actual formal network?
    General Bolden. Dr. Holdren mentioned the recent meeting in 
conjunction with U.N. COPUOS that actually the chair was an 
American, a NASA scientist, and from that meeting came the 
initial decision that we would organize, and I can get you more 
information on what they propose, because like everything else, 
it is a proposal for an international collaborative effort to 
do this.
    Dr. Holdren. If I could just add one thing to that. The 
Minor Planet Center, which I mentioned before, which is located 
at the Harvard-Smithsonian Astrophysical Observatory, is a 
formal international entity to which everybody automatically 
feeds discoveries of new near-Earth objects. So there is 
already a formal network which functions to assemble all the 
information that is available from all these different 
telescopes around the world, and even the amateur astronomers 
know where to go with their findings. They go straight to the 
Minor Planet Center, and the Minor Planet Center then goes to 
the NASA operation at JPL, which is responsible for working out 
the trajectory in coordination with these other groups. But the 
thing that is new, the international asteroid warning network, 
which emerged from this February 15th meeting in Vienna, will 
ramp up this whole effort and will add, I think, additional 
layers of capability as countries come together to say given 
these current scattered assets, what more do we need and how do 
we get it.
    Ms. Esty. It seems to me that is very important for several 
reasons. Everybody is under budget constraints so that we 
should be more effectively deploying world resources in this 
range but also confidence building, which I worry about from a 
security point of view, that if other countries see this as 
threatening because we might use these technologies in some 
other way, it is going to be vitally important that we are 
sharing in a way that in fact respects the assets other 
countries have and we all get the benefit for worldwide 
resources. So if you have specific proposals as the outcome of 
the Vienna conference goes forward, I hope you will come back 
to us to help us bring those forward to leadership about new 
opportunities but in fact will be lifesaving, you know, planet-
saving potentially but that will allow--will require greater 
collaboration. Thank you very much.
    Chairman Smith. Thank you, Ms. Esty. The gentleman from 
Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr. Holdren, you said that the asteroid that hit Siberia 
was 15 megatons. What was the name of that event?
    Dr. Holdren. That was Tunguska.
    Mr. Weber. Tunguska?
    Dr. Holdren. T-u-n-g-u-s-k-a.
    Mr. Weber. Okay. And then you said, I think, you all agreed 
there was 13,000 objects----
    Dr. Holdren. Thirteen to 20,000 140 meters and above, so 
the number would be somewhat larger for asteroids 100 meters 
and above.
    Mr. Weber. How close is the nearest one?
    Dr. Holdren. Well, it is not a question of how close it is 
now. The question is, how close will its orbit take it to the 
Earth in the near future. Right now, as Administrator Bolden 
has said, none of these asteroids hat we have found is on a 
collision course with the Earth.
    Mr. Weber. Okay. You also--well, I think it was you, 
General Bolden, that said the Russian meteor was hidden by the 
sun and it is the reason we didn't detect it because it came 
straight out of the sun?
    General Bolden. I wasn't, but that is correct. The folks in 
NASA when I asked the question of how did this happen, it came 
from out of the sun.
    Mr. Weber. But my question is, when something comes right 
out of the sun directly at us, at some point we are able to 
identify it, General Shelton, you said. How much time do we 
have? Is that 10 minutes, 2 hours? At what point does it become 
identifiable as it gets to the Earth's atmosphere?
    General Bolden. Well, one thing, Congressman, I do have to 
reemphasize, we talk about these three week scenarios, that is 
so unlikely, and even the occurrence in Russia, that was not a 
city-threatening--if you were in Russia, that was a significant 
event, but that is not of the size that is the city-
threatening, the region-threatening, the other----
    Mr. Weber. But can you give me a time frame on how long we 
would have when one actually is in the----
    General Bolden. It is my belief that we can identify in 
sufficient advance those that are the big threats, but we need 
to do better.
    Mr. Weber. Okay. We had the Hubble telescope up for a long 
time. Now we have replaced that----
    General Bolden. It is still up.
    Mr. Weber. It is still up, and you and I had the discussion 
in my office, we have a better telescope up.
    General Bolden. We are a little ways away. In 2018 we will 
launch the James Webb Space Telescope, but they are not in the 
asteroid NEO identifying--they are looking at totally different 
things.
    Mr. Weber. Given the scenario of low funding and time being 
of the essence, could we make that change to where we could add 
on to that telescope so we get it up in space?
    General Bolden. No, sir. Very simply, no, sir.
    Mr. Weber. Can't do that?
    General Bolden. No, sir. We would not want to do that, to 
be quite honest. We have a plan right now, Dr. Holdren and I 
both have mentioned collaboration with private industry, with 
private organizations like B612. I don't want anybody to think 
that B612 is going to save the planet but they are doing what 
we need to do in terms of providing a means to identify----
    Mr. Weber. That was my question about that particular 
telescope. The ISS, if I remember correctly, orbits the Earth 
every 91 minutes?
    General Bolden. That is about right.
    Mr. Weber. How much of a role do they play in being able to 
identify and how much time do----
    General Bolden. Right now we don't utilize it at all, but 
as I talked about when I was in with you, we are learning every 
single day that ISS, although we thought it was not a platform 
that you would want to do Earth science, it is turning out to 
be a great platform, and we are learning more and more about 
it. We have a solar experiment that is going up, and there may 
be the capability to put something there, but that is not going 
to be the answer.
    Mr. Weber. Six hours, six days, six weeks?
    General Bolden. I would not even like to fool anybody that 
ISS and anything we can put on it is going to answer this 
question. The types of things that Dr. Holdren mentioned and I 
mentioned earlier are the way we need to go.
    Mr. Weber. All right. Two final questions and I have got to 
go. Who monitors this screen for all of these objects? Does it 
doing your iPhone when there is a threat coming? I mean, 
somebody has to got to be watching some instrument 24/7 to say 
oops, we picked one up. Who does that?
    Dr. Holdren. That happens at the Minor Planet Center, where 
all the information from all of these sensing instruments 
around the world goes.
    Mr. Weber. And then final question. So you explode an 
asteroid, how do we know that we get total disintegration and 
we don't have, instead of one big object coming at us, 20 very 
lethal objects?
    Dr. Holdren. You don't know that. That is one of the 
reasons that blowing one up close to the Earth is not a great 
option. Deflecting it farther from the Earth so that it doesn't 
hit us at all is a much better option.
    Mr. Weber. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Tank you, Mr. Weber. The gentleman from 
Texas, Mr. Veasey, is recognized.
    Mr. Veasey. Thank you. I forgot who it was earlier talked 
about an asteroid hitting an ocean and causing a tsunami. I 
guess depending on the size of the asteroid would be the 
correct answer to this question, but how far inland could a 
reasonably sized asteroid make water come in? Because that was 
really interesting to me.
    Dr. Holdren. There is a very interesting discussion of 
exactly that question in Dr. Yeomans' book, and the answer is, 
we really don't know because the dynamics of tsunamis caused by 
asteroid impacts are, number one, very complicated and not 
adequately investigated, and it depends on many factors 
including the slope of the ocean bottom close to the continent 
that is going to be most affected and it depends on a lot of 
other characteristics of the asteroid impact. So I think there 
is no simple answer to that question that we can give at this 
time.
    Mr. Veasey. What about asteroids hitting other, you know, 
planet systems, or what sort of research do you have on that?
    Dr. Holdren. Well, there are a lot of craters out there. 
There are craters on the moon from asteroid impacts that we can 
see very clearly.
    Mr. Veasey. Any recently that you--any recent craters on 
the moon?
    Dr. Holdren. I would have to get back to you on that. I am 
not sure what the most recent impact on the moon is, but I 
think none very recent, but again, in geologic time, ``recent'' 
can be quite a stretch of time. But there is also lots of 
evidence of asteroids bashing into each other. If you look at 
the larger asteroids that are out there, they themselves are 
pitted with major craters that come from them bumping into each 
other.
    Mr. Veasey. Thank you.
    Chairman Smith. Thank you, Mr. Veasey. The gentleman from 
Utah, Mr. Stewart, is recognized.
    Mr. Stewart. Thank you, gentlemen, for your time. I know 
you and your careers and I have a great deal of respect for 
you, so thank for that. General Bolden, good to see you, sir. 
We spent some time at your place talking the other day, and I 
know that you are a former Marine pilot. As you know, I am a 
former Air Force pilot.
    My question is actually for General Shelton. As a senior 
Air Force officer with great wisdom and insight, is it your 
understanding, sir, as it is mine that Air Force pilots are the 
best pilots in the world?
    General Shelton. I am going to have to say yes on that, 
sir.
    Mr. Stewart. Thank you, sir. I am surprised no one has 
asked that question yet. I am glad I was able to.
    General Shelton. Actually, sir----
    General Bolden. That is fighter pilots of all services with 
the Air Force. I am an attack pilot.
    Mr. Stewart. You are a bigger man than I am because I have 
never landed on a carrier.
    Actually I have a couple of simple questions, then maybe a 
more detailed one. The first would be, you know, we spent a lot 
of time talking about detection avoidance, you know, and some 
of the uncertainties about that. I am curious about policy, 
public policy. If we were to determine that there was a threat 
and then even determined that it was actually potentially 
devastating, do we have a policy as to whether we would share 
that information with the public and how we would do that? And 
Dr. Holdren, I guess that is probably most appropriate for you.
    Dr. Holdren. My expectation would be that we would notify, 
but the first thing that would happen if information came in 
indicating that an asteroid had been detected to be on a 
collision course with the Earth and it was big enough to do 
serious damage, it would be exactly what happened after the 
Fukushima earthquake and tsunami affected Japan. Namely, there 
would be a gathering in the Situation Room within minutes in 
which we would have the Chairman of the Joint Chiefs of Staff, 
we would have the Secretary of State, we would have the head of 
FEMA, we would have the Secretary of Homeland Security, we 
would have the head of NASA, we would have General Shelton, and 
there would be an intense discussion of the whole range of 
actions that the government would take in order to deal with 
the threat, whatever it was, and in that meeting, 
unquestionably there would be a discussion of who to notify, 
how fast, in what form.
    Mr. Stewart. And I understand that. I am curious, and 
maybe--and I am not advocating one way or the other. I am just 
curious, have you determined the protocol for advising the 
public? Is that part of that matrix?
    Dr. Holdren. I don't know whether FEMA, which would have 
that responsibility, has developed a formal protocol. We could 
get back to you on that.
    Mr. Stewart. Okay. I wish you would. I would be curious to 
know that.
    And the second thing, and we have all talked about it, 
maybe I am just not that bright, I am not sure I get it, but, 
you know, the saying, we don't know what we don't know, and you 
said that we have discovered 94 percent of the asteroids over 1 
kilometer, for example, but if we don't know what is out there, 
how do we know that we have discovered 94 percent of them?
    Dr. Holdren. That is actually a very good question, and it 
turns out that there are subtle statistical techniques that 
rely on sampling of subpopulations and what fraction of them 
you have see before in order to determine what fraction of the 
overall population you have actually seen. That is actually 
described again in wonderfully clear detail in Dr. Yeomans' 
book. It was the best explanation of that that I have seen.
    Mr. Stewart. So you are interpolating there? You are 
drawing conclusions but you are fairly comfortable----
    Dr. Holdren. You are drawing conclusions based on sampling.
    Mr. Stewart. Right, but you are fairly comfortable with 
those figures?
    Dr. Holdren. Yes.
    Mr. Stewart. Okay. And then the last question in the minute 
or so I have left, you know, we talk about detection being, you 
know, the first line of defense, and our efforts, and you 
mentioned some of the others as well, but I mean, is the United 
States the lead on this? Clearly, we are, but are other nations 
contributing to this detection effort in a meaningful way or is 
it almost entirely our efforts that are meaningful here?
    Dr. Holdren. No, absolutely other nations are contributing 
in a meaningful way. There are important telescopes and data 
centers in Italy. That is a German-Italian collaboration. There 
is another one in Czechoslovakia. There are some--the LSST will 
be in Chile. There are some in Australia. And again, this 
domain is actually remarkable for the degree of international 
cooperation and interconnection compared to many others where 
we are not nearly as far along.
    Mr. Stewart. As it should be, of course, because we all got 
a dog in this fight. So those other entities, are they funded 
by the EU and other--they are not with American funding at all? 
Those are entirely independently funded efforts?
    Dr. Holdren. No, they are not entirely independently 
funded. For example, the Large Synoptic Survey Telescope is 
being very substantially funded by NSF even though it is going 
to be in Chile, but of course, it will be an NSF facility in a 
sense. The Arecibo Radio Telescope in Puerto Rico is funded by 
NSF.
    Mr. Stewart. So even though these are located, 
geographically located around the world, they are primarily 
U.S. efforts?
    Dr. Holdren. I would have to get back to you on the 
international distribution of the funding. Certainly there is 
substantial funding from the European Space Agency. There is 
substantial funding from Germany, from Italy, from 
Czechoslovakia, from France, but I could not give you a 
percentage.
    Mr. Stewart. Again, if you would, I would appreciate that. 
Thank you. And Mr. Chairman, I yield back. Thank you.
    Chairman Smith. Thank you, Mr. Stewart. The gentleman from 
Florida, Mr. Grayson, is recognized.
    Mr. Grayson. Thank you, Mr. Chairman.
    Gentlemen, we could spend each year a million dollars on 
space threats, we could spend a billion dollars or we could 
spend a trillion dollars. I would like to hear from each one of 
you what we should spend. That is what we have to decide here. 
And specifically, I would like to hear either a number or 
formula, I think the Science Committee can deal with formulas, 
or some sort of list of the things that you think must be done 
without regard to what they cost. Let us start with you, Dr. 
Holdren.
    Dr. Holdren. The National Academy of Sciences just a couple 
of years ago came out with a report in which they actually 
addressed this question, and they looked at what you could do 
for $500 million a year, what you could do for $100 million a 
year, what you could do for 50. I would say on the basis of 
that, if we are just looking primarily at detection and 
characterization, that I think we would want to be spending 
upwards of $100 million a year. If we are looking, as I think 
we must as well, at mitigation, then you would have to include 
the costs of carrying out the President's goal of visiting an 
asteroid by 2025. Various estimates have been put forward of 
the cost of doing that, but it almost certainly would be in the 
range of $2 billion or more spread over the period between now 
and 2025.
    Mr. Grayson. Thank you. General Shelton?
    General Shelton. Yes, sir. In my case, we are talking about 
geosynchronous orbit into the surface of the planet, so that, 
just that part of space that we are responsible for, probably 
200 or 300 million a year-ish is what we are talking about, 
developing better sensors that are more sensitive to the space 
debris population that is growing, sensors that allow us to 
better catalog the activity that is there and characterize it 
as threats continue to grow in space both adversarial threats 
as well as environmental threats. We need to be able to 
characterize that much better than we have the capability to do 
today. So I would say that 200 to 300 million range is what we 
are talking about.
    Mr. Grayson. Good. Administrator Bolden?
    General Bolden. Sir, the only thing I will add, because Dr. 
Holdren pretty much answered it, I want to reemphasize, because 
we have identified 95 percent of those objects that are a 
kilometer and above and we have seen none that are on a 
collision trajectory with Earth, this is not an issue that we 
should worry about in the near term. However, as I said, the 
President has laid out a plan, and I would say that is a very 
good start. We have a lot of work to do but the funding that is 
presently laid out in the President's budget is sufficient to 
get us there incrementally. We just have to move that plan 
forward. So you can't stop. That is my point.
    Mr. Grayson. All right. Now, tell us what kind of costs we 
would be facing if we spent nothing. It can be a worst-case 
scenario or a not-so-bad-case scenario, but the likely costs we 
would face if we did nothing. Let us start with you, Dr. 
Holdren.
    Dr. Holdren. This is a very tough question because there 
are different ways to present these things. If you take the 
expected value of the damage in terms of loss of human life 
integrated over a very long period of time, it comes out that 
the estimated loss of life from asteroid impact is only about 
100 per year. That compares with a million per year for 
malaria, it compares with five million per year for tobacco. So 
it doesn't look like a very big threat. But of course, that is 
not really a meaningful way to present a risk of this character 
where you are talking about a low probability of a very big 
disaster, and in those sorts of situations, we tend to invest 
in insurance to reduce the likelihood of a disaster we would 
regard as intolerable. If you say how big is the disaster, if 
you are talking about a 10-kilometer asteroid of the sort that 
exterminated the dinosaurs, what is the value of all of 
civilization? It is a very big number but is it meaningful as a 
number which you then divide by the 65-million-year return 
time? I think we just can't get at it that way.
    Mr. Grayson. General Shelton, the costs of a worst-case 
scenario?
    General Shelton. Well, again, from a DOD perspective, we 
would not be able to characterize the traffic on orbit, we 
would not be able to avoid collisions on orbit, we would not be 
able to detect adversary activity on orbit, and our dependence 
on space, by the way, not only for our way of life but also for 
military operations is very high so we would sacrifice that.
    Mr. Grayson. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Grayson, and let me thank 
our witnesses today for their testimony. This has been a 
particularly interesting hearing. No doubt there will be some 
follow-up questions that will be addressed to you all, but 
thank you for being here and thank you for your expertise as 
well.
    We stand adjourned.
    [Whereupon, at 11:58 a.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by The Honorable John P. Holdren

[GRAPHIC] [TIFF OMITTED] T0552.026

[GRAPHIC] [TIFF OMITTED] T0552.027

[GRAPHIC] [TIFF OMITTED] T0552.028

[GRAPHIC] [TIFF OMITTED] T0552.029

[GRAPHIC] [TIFF OMITTED] T0552.030

[GRAPHIC] [TIFF OMITTED] T0552.031

[GRAPHIC] [TIFF OMITTED] T0552.032

[GRAPHIC] [TIFF OMITTED] T0552.033

[GRAPHIC] [TIFF OMITTED] T0552.034

Responses by Gen. William L. Shelton

[GRAPHIC] [TIFF OMITTED] T0552.035

[GRAPHIC] [TIFF OMITTED] T0552.036

[GRAPHIC] [TIFF OMITTED] T0552.037

[GRAPHIC] [TIFF OMITTED] T0552.038

[GRAPHIC] [TIFF OMITTED] T0552.039

[GRAPHIC] [TIFF OMITTED] T0552.040

[GRAPHIC] [TIFF OMITTED] T0552.041

[GRAPHIC] [TIFF OMITTED] T0552.042

[GRAPHIC] [TIFF OMITTED] T0552.043

Responses by The Honorable Charles F. Bolden, Jr.

[GRAPHIC] [TIFF OMITTED] T0552.048

[GRAPHIC] [TIFF OMITTED] T0552.049

[GRAPHIC] [TIFF OMITTED] T0552.050

[GRAPHIC] [TIFF OMITTED] T0552.051

[GRAPHIC] [TIFF OMITTED] T0552.052

[GRAPHIC] [TIFF OMITTED] T0552.053

[GRAPHIC] [TIFF OMITTED] T0552.054

[GRAPHIC] [TIFF OMITTED] T0552.055

[GRAPHIC] [TIFF OMITTED] T0552.056

[GRAPHIC] [TIFF OMITTED] T0552.057

[GRAPHIC] [TIFF OMITTED] T0552.058

                              Appendix II

                              ----------                              


                   Additional Material for the Record


  Submitted statement by Representative Steve Stockman, Committee on 
                     Science, Space and Technology

    Mr. Chairman, thank you very much for focusing Congress' attention 
on taking effective action on the threats, and solutions to, 
potentially dangerous meteors and asteroids.
    The Chelyabinsk meteor, the flyby of asteroid 2012 DA14, and the 
1908 Siberian Tunguska event all offer the dramatic lesson that 
tracking and mitigating such objects must become a national priority.
    We know a large meteor or asteroid could destroy a city and kill 
millions of people. Unlike in 1908, we now have the ability--and 
therefore the responsibility--to take effective actions for identifying 
and avoiding a potentially catastrophic collision.
    Under current funding levels, NASA will not be able to meet the 
Congressional requirement to identify 90% of all objects 140 meters in 
diameter or larger by 2020. Altering the trajectory of an object in the 
Earth's path could not be accomplished within decades at current 
funding levels.
    Therefore these objectives must be met with additional and 
sufficient funds rather than reducing or cancelling funding for 
existing NASA programs. `Robbing Peter to pay Paul' would only result 
in half-hearted efforts which would fail to address the threat from 
asteroids while at the same time crippling our existing space program. 
A poorly-funded program will yield poor results.
    I am a tireless budget-slasher; however, science, space; and yes, 
planetary defense are among the few government programs essential to 
our future.
    Advances in technology for planetary defense may provide spinoffs 
for propulsion to take Americans to Mars and beyond; for cleaning up 
space debris which threatens satellites and the International Space 
Station; as well as for more everyday-life applications.
    This is of course a worldwide threat, and other nations should 
participate in developing solutions. However as with all smart space 
partnerships, it is in our distinct national interest that the United 
States lead the effort. This will assure that the majority of the 
technology developed will directly benefit the U.S. economy, and will 
give the U.S. the ability to block the transfer of our most advanced 
technology to our potential adversaries. The same technology to track 
and alter the course of asteroids could have military applications.
    The threat from asteroids and meteors is real. America must take 
the lead to develop practical and effective solutions, reap the 
technological benefits--lest a decade or two from now we regret our 
inaction.
    Letter submitted by Dr. Dante Lauretta, Department of Planetary 
                Sciences, Lunar and Planetary Laboratory

[GRAPHIC] [TIFF OMITTED] T0552.059

[GRAPHIC] [TIFF OMITTED] T0552.060

 Additional responses submitted by The Honorable Charles F. Bolden, Jr.

Material requested for the record by Rep. Rohrabacher during the

March 19, 2013, NEO hearing.

    To prepare for the unlikely event where the Earth would be 
threatened by a collision with a near-Earth object (NEO), we believe an 
enhanced program would include a steady effort of ground-based 
observation and monitoring of the detected hazards as they are found 
(lifecycle cost estimate of up to $600M over 20 years). Further 
enhancements could include space-based surveys to provide more timely 
detection of the hazardous population, and technology demonstration 
missions to test deflection techniques. The costs of these further 
enhancements are difficult to precisely estimate, but might be on the 
order of $2.5 - $3B.

[GRAPHIC] [TIFF OMITTED] T0555.061

[GRAPHIC] [TIFF OMITTED] T0555.062

[GRAPHIC] [TIFF OMITTED] T0555.063



                          THREATS FROM SPACE:
                   A REVIEW OF PRIVATE SECTOR EFFORTS
                    TO TRACK AND MITIGATE ASTEROIDS
                          AND METEORS, PART II

                              ----------                              


                       WEDNESDAY, APRIL 10, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 2:00 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] T0555.001

[GRAPHIC] [TIFF OMITTED] T0555.002

[GRAPHIC] [TIFF OMITTED] T0555.003

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Welcome to today's hearing, which is titled ``Threats from 
Space, Part II: A Review of Private Sector Efforts to Track and 
Mitigate Asteroids and Meteors.'' I will recognize myself for 
an opening statement and then the Ranking Member.
    A few weeks ago, our Committee held a hearing to review 
U.S. Government efforts to track incoming asteroids and 
meteors. Today, we will follow up by focusing on 
nongovernmental efforts.
    The substantial public interest in this issue indicates the 
broad fascination with the subject. As witnesses said in our 
previous hearing, the events of February 15, when an asteroid 
passed close by the Earth and a meteor struck Russia, were 
unique in their occurring on the same day. And I am going to 
hold up a piece of the asteroid that exploded above Russia on 
February 15. Maybe I ought to take it out of the bag here. Let 
me--and I am assuming this is not toxic. Is that right? But 
there it is, a nice size bit of meteorite there, a gift from 
the Russians. It was given to us by the Principal Investigator 
of NASA's Asteroid Sample Return Mission, which is slated to 
launch in 2016.
    In our first hearing, testimony about the government's 
efforts was not reassuring. Most troubling to me was the fact 
that of the up to 20,000 asteroids that could be labeled as 
city destroyers, we have identified only 10 percent. And we are 
unlikely to have the means to detect 90 percent until 2030.
    Detecting asteroids should not be the primary mission of 
NASA. No doubt the private sector will play an important role 
as well. We must better recognize what the private sector can 
do to aid our efforts to protect the world.
    Today's hearing will help us understand the level of risk, 
as well as what capabilities we have and those we will need. 
The President's FY 2014 budget proposal brings necessary 
attention to this issue in general, but a consensus will have 
to be reached within Congress before progress can actually be 
made.
    This won't be an effort for one agency, one company, or one 
country. And in these fiscally challenging times, we can't 
afford duplication or the inefficient use of our resources. The 
more we discuss and understand the challenges we face, the 
easier it will be to facilitate possible solutions.
    Now, I will recognize the Ranking Member, the gentlewoman 
from Texas, Ms. Johnson, for her comments.
    [The prepared statement of Mr. Smith follows:]

  Prepared Statement of Lamar S. Smith, Chairman, House Committee on 
                     Science, Space, and Technology

        Good afternoon. A few weeks ago, our Committee held a hearing 
        to review U.S. Government efforts to track incoming asteroids 
        and meteors. Today, we will follow up by focusing on 
        nongovernmental efforts.
    The substantial public interest in this issue indicates the broad 
fascination with this subject. As witnesses said in our previous 
hearing, the events of February 15, when an asteroid passed close by 
the Earth and a meteor struck Russia, were unique in their occurring on 
the same day.
    This is a piece of the asteroid that exploded above Russia on 
Feburary 15th. It was given to me by the Principal Investigator of 
NASA's asteroid sample return mission, which is slated to launch in 
2016.
    In our first hearing, testimony about the government's efforts was 
not reassuring. Most troubling to me was the fact that of the up to 
20,000 asteroids that could be labeled as ``city destroyers,'' we have 
identified only 10%. And we are unlikely to have the means to detect 
90% until 2030.
    Detecting asteroids should not be the primary mission of NASA. No 
doubt, the private sector will play an important role as well. We must 
better recognize what the private sector can do to aid our efforts to 
protect the world.
    Today's hearing will help us understand the level of risk, as well 
as what capabilities we have and those we will need. The President's FY 
14 budget proposal brings necessary attention to this issue in general, 
but a consensus will have to be reached within Congress before progress 
can be made.
    This won't be an effort of one agency, one company, or one country. 
And in these fiscally challenging times, we can't afford duplication or 
the inefficient use of our resources. The more we discuss and 
understand the challenges we face, the easier it will be to facilitate 
possible solutions.

    Ms. Johnson. Good afternoon. I want to join the Chairman in 
welcoming our witnesses to today's hearing. You each have deep 
experience and expertise directly related to the hearing topic, 
and I look forward to your testimony.
    As the Chairman has indicated, this hearing is the second 
that the Committee has held in the opening months of the 113th 
Congress on the topic of asteroids.
    Last month's meteor over Russia and the close passage of a 
near-Earth asteroid both stimulated public interest in the 
potential threat posed by asteroids and comets. And this second 
hearing is certainly a reflection of that interest.
    I will not attempt to repeat the sentiments I expressed at 
our first hearing on this topic and instead will confine myself 
to a few brief comments.
    First, it is clear that from last month's hearing there is 
still a lot of work to be done to track and characterize 
asteroids that could potentially impact the Earth and that even 
relatively small asteroids could do significant damage if they 
hit in a heavily populated area. So I hope that our witnesses 
today will help us better understand what will be needed to 
complete the existing survey, as well as perhaps extend it to a 
smaller size asteroid.
    Second, I want to be one to better understand both the 
strengths and limits of NASA relying on private organizations 
such as the B612 for detection of potential Earth-impacting 
asteroids. My problem is not with the efforts of such 
organizations to address what they see as an important problem. 
Instead, my concern is that we have reached a point where our 
government has to hope that nongovernmental organizations will 
somehow do what the government should be doing but it 
apparently is unwilling to pay for it. However, if the 
protection of the planet is not an appropriate role for the 
Federal Government, I am not sure what is. And finally, before 
I close, I will note that the President's just-released budget 
request proposes to invest in a number of asteroid-related 
initiatives. We will need to closely examine the President's 
proposals in the coming weeks to fully understand what is being 
proposed. So I am not going to comment on them in any depth 
today. Instead, I will simply say that I deeply hope that 
whatever new initiatives are being proposed will be 
accomplished accompanied by adequate funding of their own 
rather than being funded by cannibalizing other important NASA 
programs. Robbing Peter to pay Paul will not give us 
sustainable and effective NASA programs. And I hope we will all 
resist the temptation to do so as we try to address the 
challenges posed by near-Earth asteroids.Thank you and I yield 
back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good afternoon. I want to join the Chairman in welcoming our 
witnesses to today's hearing. You each have deep experience and 
expertise directly related to the hearing topic, and I look forward to 
your testimony.
    As the Chairman has indicated, this hearing is the second that the 
Committee has held in the opening months of the 113th Congress on the 
topic of asteroids. Last month's meteor over Russia and the close 
passage of a near-Earth asteroid have both stimulated public interest 
in the potential threat posed by asteroids and comets, and this second 
hearing is certainly a reflection of that interest.
    I will not attempt to repeat the sentiments I expressed at our 
first hearing on this topic and instead wil confine myself to a few 
brief comments. First, it is clear from last month's hearing that there 
is still a lot of work to be done to track and characterize asteroids 
that could potentially impact the Earth. And that even relatively small 
asteroids could do significant damage if they hit a heavily populated 
area. So I hope that our witnesses today will help us better understand 
what will be needed to complete the existing survey as well as perhaps 
extend it to smaller-sized asteroids.
    Second, I want to better understand both the strengths and limits 
of NASA relying on private organizations such as B612 for detection of 
potential Earth-impacting asteroids. My problem is not with the efforts 
of such organizations to address what they see as an important problem. 
Instead, my concern is that we have reached a point where our 
government has to hope that nongovernmental organization will somehow 
do what the government should be doing but is apparently unwilling to 
pay for. However, if the protection of the planet is not an appropriate 
role for the Federal Government, I'm not sure what is.
    Finally, before I close, I will note that the President's just-
released budget request proposes to invest in a number of asteroid-
related initiatives. We will need to closely examine the President's 
proposals in the coming weeks to fully understand what is being 
proposed, so I'm not going to comment on them in any depth today. 
Instead, I will simply say that I deeply hope that whatever new 
initiatives are being proposed will be accompanied by adequate funding 
of their own rather than be funded by cannibalizing other important 
NASA programs. Robbing Peter to pay Paul will not give us sustainable 
and effective NASA programs, and I hope we will all resist the 
temptation to do so as we try to address the challenge posed by near-
Earth asteroids.

    Chairman Smith. Thank you, Ms. Johnson. Other Members' 
statements will be made a part of the record. And I will 
introduce our witnesses now.
    Our first witness is Dr. Ed Lu. Dr. Lu is the CEO of the 
B612 Foundation, which aims to build, launch, and operate the 
Sentinel Space Telescope to help find and track threatening 
asteroids. He is a former NASA astronaut who flew three space 
missions and spent six months aboard the International Space 
Station. From 2007 to 2010, he led the Advanced Projects Group 
at Google. His teams developed imaging technology for Google 
Earth Maps, Google Street View, and energy information 
products, including Google Power Meter. He is also the co-
inventor of the gravity tractor, a spacecraft able to 
controllably alter the orbit of an asteroid. And he has 
published scientific articles on high-energy astrophysics, 
solar physics, plasma physics, cosmology, and statistical 
physics. He holds a bachelor's degree in electrical engineering 
from Cornell and a Ph.D. in astrophysics from Stanford 
University.
    Our second witness is Dr. Donald Yeomans. Dr. Yeomans is a 
Senior Research Scientist, Supervisor for the Solar System 
Dynamics Group, and Manager of NASA's Near-Earth Object Program 
Office at Jet Propulsion Laboratory in Pasadena, California. 
His research focuses on the physical and dynamical modeling of 
comets and asteroids. He was a Radio Science Team Chief for the 
Near-Earth Asteroid Rendezvous Mission. He has received 15 NASA 
Achievement Awards and asteroid 2956 was named 2956 Yeomans in 
honor of his professional achievements. Dr. Yeomans received 
his Bachelor of Arts degree from Middlebury College and his 
Ph.D. in astronomy from the University of Maryland.
    Our final witness is Dr. Michael A'Hearn. Dr. A'Hearn is a 
Professor in the Astronomy Department at the University of 
Maryland. He is the Principal Investigator for the Deep Impact 
Mission and NASA's Discovery Impact Mission in NASA's Discovery 
Program and for the Small Bodies Node of NASA's Planetary Data 
System. His research emphasizes the study of comets and 
asteroids. Dr. A'Hearn received a Bachelor of Science degree in 
physics from Boston College and a Ph.D. in astronomy from the 
University of Wisconsin, Madison.
    Now, we welcome you all. Thank you for being here. And Dr. 
Lu, we will begin with you.

                    STATEMENT OF DR. ED LU,

               CHAIRMAN AND CEO, B612 FOUNDATION

    Dr. Lu. Thank you, Members of the Committee, and thank you, 
Chairman Smith, especially for your leadership on this issue.
    So my name is Ed Lu, and I am CEO of the B612 Foundation. I 
want to thank you for the opportunity to testify before the 
Committee to describe the B612 Foundation and its Sentinel 
Space Telescope project and the importance of that project.
    The B612 Foundation is a Silicon Valley-based nonprofit 
that is building, launching, and operating the Sentinel Space 
Telescope, which will find and track threatening asteroids. So 
NASA, at the direction of Congress, has found and tracked 95 
percent of the large asteroids, those larger than a kilometer, 
that would likely end civilization were they to hit. So they 
have done a great job on that. And none of these civilization-
enders is known--thus far discovered--is known to be on an 
impact course anytime in this upcoming century. So that is the 
good news.
    But NASA has not even come close to finding and tracking 
the one million smaller asteroids that might only just wipe out 
a city or perhaps collapse a rural economy if they hit in the 
wrong place. I would like to clarify something, and so I 
thought this image might be of help. I just show here a 
football stadium, which I understand now is Heinz Field in 
Pittsburgh, and we show a couple of asteroids there, but just 
for scale.
    A 140-meter asteroid is not shown here, but it would 
roughly fit inside that stadium. And that is the size--when 
they hit, that would release about 100 megatons of energy, 
which is roughly five times all the munitions used in World War 
II. Okay. So that is much larger than a city killer. That is a 
regional killer. Okay. And NASA discovered and observed, 
tracked less than 10 percent of the asteroids in that size 
range, sort of the stadium-sized ones.
    A 40-meter asteroid, which is the larger of these two, is 
what you would really call a city killer. The last one to hit 
was in 1908 in Tunguska, and that had an impact energy about 
three to five megatons of energy. It destroyed about 1,000 
square miles of Siberian forest. And we have observed and 
tracked well less than one percent of the million or so 
asteroids of that size. So if you ask how many city killers out 
there have we found and have tracked? Less than one percent is 
the answer. And there is about a 30 percent chance that there 
will be another impact of a city killer sometime this century, 
somewhere on the surface of the Earth. Just for reference, the 
smaller one shown there is about the size of the one that 
struck Chelyabinsk last month.
    So we simply don't know when the next catastrophic asteroid 
impact is going to be, because we simply haven't yet tracked 
the great majority of asteroids. Again, less than one percent 
of these city killers have been tracked. Yet we have the 
technology to deflect asteroids, and Dr. A'Hearn will probably 
talk a little bit about Deep Impact. It is--you--which is an 
experiment to actually hit an asteroid with a small spacecraft, 
and that is all you really need to do in most cases if you find 
the asteroids well in advance and--because you can't deflect an 
asteroid that you haven't yet tracked. Our technology is 
useless against something we haven't found.
    So that is why our number one priority from the standpoint 
of planetary defense is to find and track asteroids as soon as 
practical. You can't deflect an asteroid you haven't yet found, 
or for that matter, you can't capture it, you can't visit it, 
you can't mine it, you can't explore it until you have found 
it.
    So finding and tracking the roughly one million or so city 
killer asteroids in a reasonable time frame requires a system 
that can find tens to hundreds of thousands of them per year, 
right? If you are going to get to a million, you need to find 
them at a very high rate. Anything less than that, from a 
planetary defense standpoint, is just playing around the edges.
    So this task of finding those smaller asteroids cannot be 
done even by large ground-based telescopes, optical telescopes, 
and it especially cannot be done by small telescopes. So--and 
that is because asteroids are not only small but they are dark. 
Their color is often as dark as charcoal, and that makes them 
really dim. So these smaller asteroids are only spotted 
currently when they come very, very close to the Earth. So, 
because most of the large asteroids have been found, 
unfortunately, that means that amateur astronomers and people 
with smaller telescopes can no longer substantially contribute 
to this particular effort, nor will small space-based optical 
telescopes such as have been proposed by some commercial 
companies, they will not make a dent in this problem.
    But the fact that asteroids are dark can be used to our 
advantage, because when they are small and dark, they absorb 
light from the sun and they are warmed. And that means they are 
brighter than the background sky if you observe them in 
infrared. And when you observe them in infrared, you can see 
them at much greater distances than you can with optical 
telescopes.
    So as described in the National Academies report 
``Defending Planet Earth,'' if you want to find a substantial 
fraction of city killer asteroids, you need a space-based 
infrared telescope. So that is what the B612 Foundation is 
doing. Our Sentinel Space Telescope is going to launch in 2018. 
It will orbit the sun about 30 million miles closer to the sun 
than the Earth in a solar orbit that is similar to the orbit of 
Venus, and that means Sentinel will not have a blind spot 
because--like Earth-based telescopes, which can only look at 
night looking away from the sun. Sentinel will always look away 
from the sun, looking outwards at Earth's orbit.
    So it will find and track as many asteroids as have been 
discovered by all other telescopes combined just in the first 
month of operation. Over six and a half years it will find over 
half a million asteroids, including more than 90 percent of the 
sort of stadium-sized ones, the regional killers, and the 
majority of those that are just city killers, the larger of 
these two asteroids. These asteroids will be tracked accurately 
enough to know if any of them is going to be on a course to hit 
Earth this century.
    So to carry out this mission, the B612 Foundation has 
assembled perhaps the finest technical team I have had the 
privilege of working with in my nearly two decades of 
involvement in aerospace, including 12 years as a NASA 
astronaut. The fact that we were able to recruit such a team 
is, I think, a testament to the inspiring and urgent nature of 
this mission. As we tell these people, who wouldn't want to 
have a chance to save the world? And that is really what I 
think drew them to the mission.
    So our major partner in transmitting our data back, as well 
as allowing some NASA experts to sit on some of our technical 
review panels, including, for instance, Dr. Yeomans here. The 
data generated by Sentinel will not only protect the people of 
planet Earth but will form the basis of future exploration and 
scientific missions.
    So a unique aspect of B612 is that we are carrying out this 
mission as a nonprofit. We do not receive any government 
financial support, and we are relying upon donations from 
individuals and foundations. These donors understand the 
importance of cataloging the environment we inhabit and the 
solar system, and they as individuals are making Sentinel 
happen because they know that our future may depend upon it.
    So make no mistake, raising this amount of money 
philanthropically with no expectation of financial return from 
our donors is challenging. But being a nonprofit has forced us 
to be very focused, and I believe it has made us resourceful. 
Our progress has been swift and we are approaching now the 
second of our eight milestones leading up to launch.
    The B612 Foundation is managing this project in an 
innovative Silicon Valley fashion with the rigor of a NASA 
project. So we are able to carry out this mission at what we 
believe to be about 60 percent of the cost as if it had been 
procured via federal procurement.
    So I should point out that the core technologies that 
Sentinel uses that allow us to detect dark objects via their 
infrared admissions would be useful to a number of federal 
agencies, including NASA, and there may be an opportunity to 
expand our existing public-private partnership with NASA in a 
manner that leverages our private donations, accelerates our 
technical progress and, in the end, provides the data that 
could protect us all.
    So we can protect the Earth from asteroid impacts, but we 
can't do it if we don't know where those asteroids are. And 
that is why the Sentinel telescope is so important.
    Chairman Smith. Okay, Dr.----
    Dr. Lu. I can't think of a more inspiring mission. Thank 
you.
    [The prepared statement of Dr. Lu follows:]

    [GRAPHIC] [TIFF OMITTED] T0555.011
    
    [GRAPHIC] [TIFF OMITTED] T0555.012
    
    [GRAPHIC] [TIFF OMITTED] T0555.013
    
    [GRAPHIC] [TIFF OMITTED] T0555.014
    
    [GRAPHIC] [TIFF OMITTED] T0555.015
    
    Chairman Smith. You are at nine minutes and we need to move 
on. Are you--can you conclude?
    Dr. Lu. That was my conclusion.
    Chairman Smith. Okay. Good timing.
    Dr. Yeomans.

          STATEMENT OF DR. DONALD K. YEOMANS, MANAGER,

               NEAR-EARTH OBJECTS PROGRAM OFFICE,

                   JET PROPULSION LABORATORY

    Dr. Yeomans. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to discuss some issues related to 
near-Earth objects, and thank you all for your continuing 
interest in this topic.
    As noted by the Chairman, back on February 15, Friday, we 
had a 40 meter-sized object that passed within 17,200 miles of 
the Earth's surface and passed 5,000 miles within the 
geosynchronous ring of communication satellites that were 
announcing its arrival. Sixteen hours earlier on the same day, 
we had an impact over Chelyabinsk, Russia, of an 18 meter-sized 
object coming in at 42,000 miles per hour weighing 11,000 tons. 
And although I have been upstaged by Chairman Smith, I also 
have a piece of the rock that you may want to look at after the 
hearing.
    My point is that the close approach was a 1-in-40 year 
event for an object of this size getting that close. The impact 
of the smaller object over Chelyabinsk is a 1-in-100 year 
event, so very unlikely events do happen sometimes on the same 
day within 16 hours. Asteroid impacts with the Earth are 
extremely unlikely, but they could cause global problems. But 
if we discover them early enough, we have the technology to 
deflect them.
    Significant progress has been made to discover and 
understand the physical characteristics of near-Earth 
asteroids, largely as a result of NASA-supported efforts. For 
example, as pointed out, over 90 percent of those near-Earth 
asteroids larger than a kilometer have been found, and we have 
integrated their motions for 100 years into the future, and 
none of them represent a threat. About 25 percent of 140 meter-
sized objects have already been found, and likewise, they do 
not represent a threat.
    So the goal is to find and track 90 percent of the 140 and 
larger sized objects, and in so doing, we will reduce the 
threat of all objects of all sizes to a 99 percent level.
    A thousand new near-Earth asteroids are discovered each 
year, almost all of them as a result of NASA-supported surveys. 
Twenty-seven thousand new asteroid observations per day are 
added to the archives at the Minor Planet Center in Cambridge, 
Massachusetts, and there is an increasing pace with which 
observations of near-Earth asteroid physical characteristics 
are being taken, including optical measurements, near infrared 
measurements, and radar measurements.
    The vast majority of near-Earth asteroid discoveries are 
currently being made by the Catalina Sky Survey near Tucson, 
Arizona, the Pan-STARRS Survey in Hawaii, and the Linear 
Program near Socorro, New Mexico. And these surveys are 
continuously improving their discovery efficiencies, and the 
next generation of near-Earth asteroid survey telescopes and 
cameras are under development.
    However, as pointed out by Ed, still undiscovered are 50 to 
100 of the largest near-Earth asteroids and several thousand 
near-Earth asteroids larger than 140 meters. In fact, there was 
a two-kilometer--a new two-kilometer-sized asteroid that was 
announced today, so we still have a handful of large ones to 
find and several thousand of the smaller ones that are 140 
meters and larger.
    A dramatic increase in the near-Earth asteroid discovery 
efficiencies is achievable using space-based infrared 
telescopes, either in a Venus-like orbit, as pointed out by Ed, 
or located about a million miles on the sunward side of the 
Earth at the so-called L1 point. The goal is to find the large 
near-Earth asteroids early enough to mount a deflection mission 
if necessary. The easiest and fastest deflection technique 
involves impacting a spacecraft on the asteroid with a 
rendezvous spacecraft there to monitor the success and verify 
that the object was moved just enough so that in 10 or 20 
years, when it was predicted to hit the Earth, it would miss by 
a wide margin.
    What about the undiscovered millions of small near-Earth 
asteroids larger than 30 meters that are most likely to hit the 
Earth, the city killers, as Ed pointed out? Finding most of 
these near-Earth asteroids would be extremely challenging. 
Perhaps a cost-benefit study could establish the appropriate 
threat levels where it would make more sense to simply warn of 
an asteroid impact rather than finding it early enough to mount 
a deflection campaign.
    NASA is currently supporting a program called ATLAS at the 
University of Hawaii that is designed to find small objects a 
few days or a few weeks prior to impact. And the objective 
there, of course, is civil defense. If you find it several days 
in advance, you could evacuate if the object was threatening a 
populated area.
    So, in summary, with the current near-Earth asteroid threat 
identification process in place, and with considerable 
augmentations to NASA's Near-Earth Object Observation Program, 
we can determine which near-Earth objects represent potential 
future threats and do so with enough time to either deflect the 
larger objects or warn of the arrival of the smaller ones.
    Thank you for your attention.
    [The prepared statement of Dr. Yeomans follows:]

    [GRAPHIC] [TIFF OMITTED] T0555.004
    
    [GRAPHIC] [TIFF OMITTED] T0555.005
    
    [GRAPHIC] [TIFF OMITTED] T0555.006
    
    [GRAPHIC] [TIFF OMITTED] T0555.007
    
    [GRAPHIC] [TIFF OMITTED] T0555.008
    
    [GRAPHIC] [TIFF OMITTED] T0555.009
    
    [GRAPHIC] [TIFF OMITTED] T0555.010
    
    Chairman Smith. Thank you, Dr. Yeomans. I was also going to 
mention the book you wrote that just came out this year called 
``Near-Earth Objects: Finding Them Before They Find Us.'' That 
is a nice subtitle. But I appreciate your writing about this 
subject, and who knows, maybe anticipating the publicity that 
subject would have this year as well. Thank you for your 
testimony.
    Dr. A'Hearn.

        STATEMENT OF DR. MICHAEL F. A'HEARN, VICE CHAIR,

         COMMITTEE TO REVIEW NEAR-EARTH OBJECT SURVEYS

               AND HAZARD MITIGATION STRATEGIES,

                   NATIONAL RESEARCH COUNCIL

    Dr. A'Hearn. Mr. Chairman, Members of the Committee, thank 
you for the invitation to appear today and to discuss a variety 
of aspects of the near-Earth object hazard. I will talk a 
little bit less about finding them than Don and Ed had done and 
more about what to do about it.
    Once we complete the George E. Brown survey down to 140 
meters, we have taken care of a large fraction of the risk 
where we can get long advanced warning, and therefore, have 
plenty of time to mount a mitigation campaign. As was just 
pointed out regarding the ATLAS survey, that is designed for 
late discoveries, and as we go to really small ones, late 
discoveries will be a different kind of issue, because then we 
don't have time to do mitigation other than an evacuation for 
30- to 50-meter city killer--and that is really more than a 
city. Tunguska was 2,000 square kilometers. You can, in 
principle, do evacuation, but if you get much larger than that, 
75 meters, 100 meters, evacuation is no longer practical, and 
you need to have a plan in place with tested technologies to 
try to do mitigation on relatively short notice, because these 
are likely to be shorter notice than the ones we have been 
discovering so far where we have been aiming for years of 
advanced warning and plenty of time to plan how to mitigate.
    The mitigation is a key part of the hazard issue, and when 
the National Research Council issued its report, it suggested 
programs at a variety of different levels depending on how much 
insurance you wanted to buy basically. And if you really want 
to include mitigation as part of that, it is up at the couple 
of hundred million dollars a year level in order to include 
mitigation.
    Now, it is interesting that most of what we--much of what 
we know about mitigation so far has come from research 
programs. They are the ones that provide the physical 
characteristics. Earth-based remote sensing tells us about the 
sizes of the different asteroids, tells us about their surface 
composition, but not necessarily their interior. For a few of 
them, such as binaries, we can get interior bulk densities. But 
missions to these objects--we just heard a mention earlier from 
the Chairman of the sample return mission that will be launched 
in 2016. That mission will tell us a great deal about the 
structure of an asteroid--the internal structure and what the 
materials are, and therefore, what kind of techniques will work 
efficiently for mitigation.
    The Deep Impact Mission, of which I was a principal 
investigator in 2005, carried out an impact on the nucleus of 
comet Tempel 1. It showed first that cometary nuclei are 
remarkably porous. That makes them harder to push around than, 
say, a solid iron asteroid. And the rocky asteroids, which are 
fragmented, are somewhere in between. It demonstrated new 
techniques for autonomous navigation to lead to an impact. 
Whether you are doing a kinetic impact or a standoff nuclear 
explosion, it demonstrated how difficult the attitude control 
is when you get close to some of these. Milligram pieces of 
dirt or rock were bouncing our third-of-a-ton spacecraft around 
by many degrees, causing serious pointing problems. That is an 
important thing you need to do if you are developing 
mitigation.
    So these research programs are important because they are 
the only ones that are now providing us information on physical 
characteristics. Unfortunately, the Discovery Program has been 
devastated. It was originally conceived as at least one new 
mission every two years. In the 1990s there were six missions. 
In the 2000s there were five, the last of which was in 2007. 
Then, there was a five-year gap until the one that was selected 
in 2012, namely InSight, the mission to Mars. And with NASA's 
current plans, the announcement of opportunity for the next one 
won't be until 2015, which means selection to fly in 2017. So 
we are down to two per decade instead of the five a decade the 
decadal survey recommended and which was the basis for the 
original program. Frequent opportunities to go to space are 
critical.
    Also, just as it is important to partner with the private 
sector, it is crucial to also partner internationally for 
mitigation because mitigation can be seen as threatening. And 
we need to develop real mechanisms. We have talked a lot with 
potential international partners. We need to be talking to 
people who aren't our partners such as the Chinese, people who 
might think something we did in space was a threat rather than 
trying to help, and that needs to be something that we need to 
look very carefully at in the near future.
    Thank you.
    [The prepared statement of Dr. A'Hearn follows:]

    [GRAPHIC] [TIFF OMITTED] T0555.016
    
    [GRAPHIC] [TIFF OMITTED] T0555.017
    
    [GRAPHIC] [TIFF OMITTED] T0555.018
    
    [GRAPHIC] [TIFF OMITTED] T0555.019
    
    [GRAPHIC] [TIFF OMITTED] T0555.020
    
    [GRAPHIC] [TIFF OMITTED] T0555.021
    
    [GRAPHIC] [TIFF OMITTED] T0555.022
    
    [GRAPHIC] [TIFF OMITTED] T0555.023
    
    Chairman Smith. Thank you, Dr. A'Hearn. I will recognize 
myself for questions.
    Dr. Lu, given the fact that we do have budget constraints 
and that funding is limited, what is the most--single most 
important thing we could do in this, say, next three- to five-
year time period to detect these threatening asteroids?
    Dr. Lu. Well, if you are going to ask what is going to find 
the most number of these asteroids that--of anything that is 
currently planned, I think it is Sentinel pretty--by a pretty 
good margin. And if you were to ask, you know, to get to what 
Congressman Johnson mentioned, which is, you know, we are a 
private organization----
    Dr. Lu [continuing]. There are opportunities to accelerate 
our development. You know, we could, in principle, deepen our 
relationship with our currently existing public-private 
partnership if we wanted to accelerate that. We understand 
again that the technology that we are developing--the core 
technologies are useful for lots of other things that the 
Federal Government finds important, and so, you know, one of 
the possibilities is to accelerate the technology development.
    Another possibility is if this data is worthwhile to NASA, 
if it is important to NASA, perhaps we could work out something 
where this data is purchased from us, and that way NASA only 
pays for it if the data is good and they could work with us to 
make sure that the--as they already are, that the quality of 
the data is what they need.
    Chairman Smith. Okay. Thank you, Dr. Lu.
    Dr. Yeomans, I am sure there is an answer to this that I 
should know, but we have always been told that in the case of 
near-Earth objects, the only alternative is to move them out of 
their orbit or deflect their trajectory so that there is no 
direct impact, and it doesn't do any good to explode those 
objects because then we just get a shower of near-Earth 
objects, many more but they are smaller. Is it--would it be 
possible to explode an incoming asteroid with such force that 
the pieces would be so small that they would burn up coming 
into the Earth's atmosphere? So is that a realistic alternative 
or not?
    Dr. Yeomans. Yes, it is actually. There has been some work 
done by Dave Dearborn at Lawrence Livermore Laboratories using 
computer simulations. If you insert an explosive charge and 
detonate it, you often get the fragments going off at such 
velocities and directions that what little does hit the Earth 
does so with very little damage.
    Chairman Smith. Why is so much, therefore--so much time, so 
much effort, so much focus on moving it out of its current 
trajectory? Why not more focus on what you just described?
    Dr. Yeomans. Well, it is actually considerably easier to 
run into it and slow it down a tiny little bit than to land on 
it and plant an explosive device and----
    Chairman Smith. Okay. Another practical answer as well.
    Dr. Yeomans. It is technologically easier.
    Chairman Smith. Okay. Dr. A'Hearn, you mentioned about the 
time with--that would--we would have or not have if we detected 
an incoming object and had to deflect it. What would be the 
average time that we would have, say, of a city killer-sized 
asteroid? I guess it depends on whether you are using ground-
based telescopes or space-based telescopes, but say in the next 
three to five years, how much time would we have if we 
developed the Sentinel program and were able to detect these 
objects?
    Dr. A'Hearn. I will defer questions on the sensitivity of 
Sentinel to Ed Lu----
    Dr. A'Hearn [continuing]. But in general, it is important 
to remember we have only ever detected one incoming object 
before it hit.
    Chairman Smith. We have a long way to go----
    Dr. A'Hearn. That was less than a day out.
    Chairman Smith. Okay. Dr. Lu----
    Dr. A'Hearn. And that was very small.
    Chairman Smith. Do you have any ideas on how much----
    Dr. Lu. The goal for Sentinel is to find things decades 
before they hit so that you can deflect them rather than 
evacuate.
    Chairman Smith. We have plenty of time. At our first 
hearing, Dr. Holdren made the point, I think, that only two 
percent of the Earth's surface consists of urban areas and so 
that further diminishes the possibility of a city sustaining a 
direct hit. I am not sure that is much consolation to those who 
live in rural areas by the way, but at least it was interesting 
as far as the amount of damage that might occur.
    But thank you all. You have answered my questions.
    And the gentlewoman from Texas, the Ranking Member Ms. 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much.
    Dr. Lu, I realize that details over NASA's proposal in its 
FY 2014 budget request to conduct a mission to an asteroid with 
humans and other asteroid-related activities are just trickling 
out. A story over the weekend reported concerns about the 
asteroid initiative from two sources. One worried that NASA's 
activities may interfere with the private-sector efforts. 
Another was critical of the absence of international 
collaboration. Based on what you have read or know of NASA's 
plans, are such concerns warranted?
    Dr. Lu. I don't think so. I believe that--you know, I, as 
much as anybody, want our human spaceflight program to have a 
clear, defined, and inspiring goal. However, I don't think--
this mission should not be confused of one that is planetary 
defense. That is a very--it is a different mission----
    Ms. Johnson. Um-hum.
    Dr. Lu [continuing]. What that proposed mission is to do.
    Ms. Johnson. Dr. Yeomans, can you share details on NASA's 
asteroid detection effort or efforts that are scheduled to 
benefit from the increase for the coming fiscal year?
    Dr. Yeomans. Yes, it is my understanding that the asteroid 
retrieval mission is primarily a technology test of the solar 
electric propulsion system. It is also a rendezvous with a 
small asteroid with an attempt to bring it back into a lunar 
orbit. It has components for NASA's human exploration program. 
And, of course, the most challenging first part of this whole 
mission idea is to find a suitable target. So the plus-up that 
you mentioned in the budget will certainly provide a 
commensurate increase in the number of objects that are 
discovered and could be utilized for space resources, 
scientific investigations, planetary defense, as well as a 
target for this mission.
    Ms. Johnson. Dr. A'Hearn, did you have any comment?
    Dr. A'Hearn. No, I have no further comments.
    Ms. Johnson. Thank you. Now, in the first round of hearings 
that we had, there was mention of an orbiting telescope, which 
we don't have access to. Could either of you comment on the 
value of having an orbiting telescope?
    Dr. Lu. Well, the Sentinel is an orbiting telescope----
    Ms. Johnson. It is.
    Dr. Lu [continuing]. But it does not orbit the Earth. It 
orbits the sun. But it is a space telescope.
    Dr. Yeomans. There is also----
    Ms. Johnson. Yes.
    Dr. Yeomans. There is also a concept where you have a 
spacecraft a million miles sunward of the Earth also orbiting 
the sun, but it is closer to Earth and could be looking out 
toward near-Earth asteroids as well.
    Ms. Johnson. So in view of the seemingly increased interest 
for activity of the asteroids, how do you see an investment in 
an orbiting telescope that would orbit the sun or in a place it 
is not orbiting now? Do you see any value?
    Dr. Yeomans. Oh, yes. Yes, as Ed mentioned, the benefit of 
having a telescope in space is several-fold. First of all, you 
can use an infrared detection system, and these objects are 
much brighter in the infrared and much easier to find than in 
the optical region. You don't have problems with weather or day 
and night. You can observe these objects from a viewpoint that 
the Earth cannot, so you sometimes get an advanced warning in 
that respect. So it is a far more efficient system from space.
    Ms. Johnson. Any other comment?
    Okay. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Texas, Mr. Hall, the Chairman Emeritus 
is recognized for his questions.
    Mr. Hall. Mr. Chairman, thank you.
    I probably ought to just write a book on this, my 
questions, because I have so many. And this is your second 
hearing, is that right?
    Mr. Hall [continuing]. And I admire you for it. You are 
almost seeking something that is impossible from the numbers 
even than that I have heard here.
    Olin ``Tiger'' Teague, whose picture is right over there, 
ought to be known as the father of NASA. And you might even 
become the father of characterizing Earth objects and how close 
they are. But I think you are going to have to have some 
overseas hearings. We have had this second one and four more 
just like this probably won't yield any definite answers. But 
it is a very interesting matter, a very interesting item.
    But how could we ask--and maybe, Dr. Yeomans, on to the 
near objects program, like in the 2013 worldwide attention in 
the city of Chelyabinsk in Russia--injured a lot of people but 
didn't kill anyone is what I understand. And the others that I 
remember and that we have heard about, a lot of injuries, but 
what--they didn't know it was coming and didn't know what we--
when we had that hearing--and I think I testified to this 
before--we found out in that hearing that one had passed Earth 
and just missed us by 15 minutes. And that could be a jillion 
miles away, but that is where they put it. It had missed Earth 
by 15 minutes, and nobody even knew it was coming until it had 
come and gone.
    So--and we made every effort to get in touch with nations 
like Japan, Spain, Italy, England, France to send somebody over 
here to testify with us because it has to be a world for us if 
we are going to really do anything about it. We can't pave the 
way like we spent 34 billion on global warming. My President 
spent 34 million on that and haven't done anything on it.
    But it looks like we are going to have to have world input 
to ever be anywhere near efficient on making the determination 
that all the people in the world that I want. But we couldn't 
get any interest at all. And I think this Chairman of this 
Committee that that would be a very good thing if you could 
have some hearings, maybe in England, be at the places and get 
their interest up because it is going to take their working 
with us to make anything happen.
    I guess the only question I would have is, Dr. Yeomans, 
whether you know of any private organizations that are involved 
in near-Earth object detection like Boeing or Lockheed or 
McDonnell Douglas or Texas Instruments? You know, I would like 
to get them into it but they can't do it themselves. So that is 
just something to think about. Do you have any suggestions on 
the private organizations and how they might work into it?
    Dr. Yeomans. Well, Ed----
    Mr. Hall. They said at one time a laser could affect them 
just a little bit but it didn't say how much.
    Dr. Yeomans. That is true. If you had a laser nearby, you 
could ablate the front side and introduce a thrust in the 
opposite direction. But in terms of the international 
cooperation, I couldn't agree more. In fact, the European Space 
Agency has been getting more and more interest in this near-
Earth asteroid discussion. Recently, they are actually funding 
the so-called NEOShield program to look at various mitigation 
options, including kinetic impactors.
    There is an activity within U.N., COPUOS, the Committee on 
the Peaceful Uses of Outer Space, and NASA is involved with 
that working group to try and define an international warning 
system, with the response protocols that would be required in 
the event of an incoming object. Who would be in charge? Who--
--
    Mr. Hall. Dr. Lu suggested NASA. The reason I thought about 
``Tiger'' Teague, Olin Teague, and all the work he did in even 
getting it off the ground and supporting it with funds that we 
don't have today. And we can't go to Mars until people can go 
to the grocery store, so I don't know how we are going to talk 
about protecting the world if we don't have world support. And 
it would be a great thing for this Chairman if the government 
doesn't have the money to send them, he has personal wealth if 
he could maybe take four or five of us over there. And I think 
he is going to tell me my time is over. I yield back what time 
I do have.
    Chairman Smith. Thank you, Mr. Hall.
    The gentlewoman from Connecticut, Ms. Esty, is recognized 
for her questions.
    Ms. Esty. Thank you very much. I wanted to follow up a 
little bit on--we have had discussion previously about this 
international issue which, Doctor, you had mentioned. Can you 
explain to us what is currently done in terms of data sharing? 
And perhaps, Dr. Lu, if you could discuss if you have even 
contemplated now for your project, it not being a governmental 
project, being private nonprofit, what you would contemplate 
being that data-sharing aspect for your organization?
    Dr. Lu. Yeah, I--you know, our intention as a public 
nonprofit is to put the data out there so as many scientists 
can see the data and use the data and warn people if there is 
things in the data that show that something is going to hit the 
Earth. So that is our plan.
    But actually, if I could add one other thing. Don't get the 
impression that finding asteroids--while it is a lot of money--
is something that requires enormous amounts of money. For 
instance, I mean our telescope, which will find and track a 
great majority of these asteroids, is less than the cost of--
there is a road-widening project in the San Francisco Bay area 
in the town of Burlingame that is more expensive than our 
telescope. And that is why we went about this as a private 
fundraising effort. We are less expensive than a museum. There 
is a wing of an art museum in San Francisco that cost more than 
our project. And that is privately raised money. It is not 
enormous. I mean, it is a lot for individuals, but it can be 
done.
    Ms. Esty. If I can follow up, actually. That was very 
helpful, because I did want to ask a little bit more. What are 
the specifics? What are your plans if you--obviously, we know 
that in the past NASA has encountered cost overruns for a 
variety of reasons. What are your plans as an organization if 
you discover, say, in the development or in the research phase 
that something you anticipated will work does not quite work 
the way you expect it? Would you go back to funders? What does 
that do? How--and also, frankly, how close are you to raising 
the $450 million that you have budgeted? When will you start? 
Will you do it in tranches if you don't have it ready? What are 
your plans for ensuring that? Because we are hearing from 
everyone if you don't have the money set at the outset, you end 
up embedding cost overruns because it just takes longer.
    Dr. Lu. We are using existing technology to the extent we 
can, and we actually have a firm fixed price contract, which 
is--so in other words, the risk is borne by our contractor Ball 
Aerospace. And yes, we are raising the money in tranches. This 
year, our goal--fundraising goal is $20 million. And we are 
well on our way towards that for this year.
    Ms. Esty. So how much of the total do you have--would that 
have you at?
    Dr. Lu. Well, this really is our first full year since we 
have begun our fundraising. We announced on June 28 of last 
year. Our needs were quite small last year, in the single-digit 
millions. This year, they are accelerating, and next year they 
will accelerate even more, so our peak spending rate will be in 
the range of $100 million for a year or so, and then it will 
taper back down. But we can finance this over a much longer 
period.
    Ms. Esty. And just a question for all of you somewhat. If 
we have congressional mandates that, say, previously would have 
been directed to NASA as a governmental organization and 
Congress says we need to see this data because we need to make 
decisions, for the doctors who are not in the private entity, 
how would you contemplate we should--would structure that? And 
how would that operate?
    Dr. Yeomans. Well, I think it is important to point out 
that NASA does have a Space Act Agreement with the Sentinel 
group for providing navigation and tracking of their 
spacecraft. Once their data are taken, it would come through 
the NASA channels. It will go to the Minor Planet Center in 
Cambridge, Massachusetts, then it would come to our program 
office at JPL, and then we would interact with our Italian 
colleagues and we would post our results for the world. So it 
is quite a transparent data-sharing process even though it is 
privately funded, for the most part.
    Dr. A'Hearn. Yes, I was just going to comment that in my 
experience the data on finding and tracking near-Earth objects 
and on predicting the orbits of them all becomes very public 
very quickly. There has never been a problem getting the data. 
The only problems are what to do with it.
    Ms. Esty. Thank you all very much.
    Chairman Smith. Thank you, Ms. Esty.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you very much. I will try to be as 
fast as I can here.
    First of all, I would like to note----
    Chairman Smith. And Mr. Rohrabacher, if you will suspend 
for a minute, I want to let the Members know that after this 
series of questions, we are going to recess for about 45 
minutes so we can go conduct three votes, and then we will 
resume the markup after the votes.
    And the gentleman continues to be recognized.
    Mr. Rohrabacher. Great. Thank you, Mr. Chairman. And number 
one, first of all, Mr. Chairman, I would like to agree with 
Chairman Hall and his recommendation that we work with you and 
Members of both sides of the aisle to try to find international 
cooperation on an effort that deserves to be not just the 
responsibility of the American taxpayers but people of the 
Earth united against this common threat.
    Let me note there are other groups like the Planetary 
Society, headed up by Bill Nye, who are very involved with this 
issue. And I have a statement that I would like--of Mr. Nye 
that I would like to put in the record at this point.
    Chairman Smith. Without objection, so ordered.
    [The information may be found in Appendix II.]
    Mr. Rohrabacher. Thank you very much.
    Next, I would mention there are two recently formed 
companies that have as their goal mining asteroids: the 
Planetary Resources, Deep Space Industries. Both of these 
companies have impressive teams, and I would hope that at some 
future date we might be able to bring them to testify about 
their activities and the expertise that they are developing.
    Dr. Lu, I found your testimony to be very interesting. We 
have to assume that either road construction in San Francisco 
is incredibly expensive or that we have in some way brought 
down the cost of your efforts--space efforts. I find--and it 
was your testimony that B612 does not in any way receive any 
taxpayer funding?
    Dr. Lu. That is correct.
    Mr. Rohrabacher. Congratulations, Dr. Lu. I want to say 
that for the record, congratulations. And I understand that the 
Sentinel mission under the Foundation actually has been 
operating with fixed-term prices that you are dealing with 
your--with the companies that you have to deal business with. 
Is that correct?
    Dr. Lu. That is correct.
    Mr. Rohrabacher. So you have a fixed-price term. We have 
been told over--again and again, Mr. Chairman, that we can't 
have these fixed-price contracts. For example, with our polar 
weather satellites, oh, you can't have a fixed-price contract. 
Perhaps this private sector group here that doesn't receive any 
of our government money is showing us how we can keep some of 
the costs down.
    And let me just suggest that we need to get more private 
money, more international cooperation. This is a serious threat 
to the--not only to the well-being but even, perhaps, to the 
survival of humankind on this planet, and it deserves us to 
work together and to do so in a cost-effective way. And we 
can't do anything nowadays unless it is in a cost-effective 
way.
    I would like to thank you, Mr. Chairman, for holding this 
hearing, and I just will leave it at that. And I appreciate 
your efforts and am totally supportive.
    Chairman Smith. Okay. Thank you, Mr. Rohrabacher. And I 
know this subject has been of long-time interest to you as 
well.
    As I say, we are going to recess for about 45 minutes, and 
then I hope Members who still have questions will return. And 
if you all can possibly stay, that would be great. I understand 
one witness may have to leave, and if that is the case, we 
understand that as well. So thank you all, and we will return 
and we will recess until about 45 minutes from now.
    [Recess.]
    Mr. Palazzo. [Presiding] I want to thank the witnesses for 
staying behind for this important Committee hearing.
    And at this time, I am going to recognize Ms. Bonamici for 
five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Thank you so much for your testimony and thank you for 
staying. Sorry we had to leave to vote.
    I wanted to talk a little bit about how we respond. And Dr. 
A'Hearn, in your prepared statement, you indicate the 
Academies' 2010 report provided options geared to how much 
money Congress wished to appropriate to buy insurance against 
an impact, and you described evacuation for small impactors is 
one approach to mitigation and noted the panel's recommendation 
that a research program be instituted to better understand 
mitigation approaches.
    I represent a district in Oregon that contains coastline, 
and my constituents on the coast are frequently talking about 
being prepared, emergency preparedness for tsunamis and 
earthquakes, and so these are certainly analogous situations.
    In our prior hearing, there was a discussion about 
evacuations in response to a meteor incident. So what would be 
the nature of the recommended research as it applies to 
evacuations? I know that when we are talking over in the Oregon 
coast now they don't have a lot of time from the time they find 
out about a tsunami to get upland. So what do you see as the 
most cost-effective insurance, and can you talk a little bit 
about preparing for a meteor impact, please?
    Dr. A'Hearn. I think the most important issue is that we 
don't have a really solid theory of how big a tsunami you will 
get from a given size impact. There are simulations that 
disagree by huge factors on how big a tsunami you will get at 
various places. So on that specific issue, I think that is the 
key thing that needs to be done. It depends on the size of the 
impact or, of course, depends on the velocity it comes in, the 
speed, and it depends on the density. You know, is it really 
solid or is it mostly porous? But for any given case even, 
there are disagreements in the theoretical literature on what 
the effect will be.
    So that is the biggest issue. Once you know how big the 
tsunami will be, then you will get a better feeling for how far 
you have to evacuate to get to high ground. And I am not 
familiar with how much time is needed in any specific area.
    Ms. Bonamici. Sure. That is dependent, I think, on the 
geography.
    And to all the panel members, how should the policy--how 
should we approach the policy and legal issues in addressing 
warning the public? My constituents at home are worried about 
finding a job and about too many kids in the classroom, so--and 
on the coast, they are worried about a tsunami and they went 
through, you know, after the earthquake in Japan, some 
emergency preparedness, but there is still a lot to do. So what 
is the best way for us as policymakers to approach this warning 
and preparedness, and how should we handle that on national and 
international levels? What is your advice?
    Dr. Yeomans. If I could respond. There is an ongoing effort 
within the United Nations' Committee on the Peaceful Uses of 
Outer Space to address these issues, and one of the key issues, 
as you noted, is how do we best warn the public, give them the 
facts without scaring them? So on the international level 
within this Committee, these discussions are ongoing. And that 
is one of the issues that is front and center. We don't have a 
process in place. I mean, we are scientists so we can say we 
are going to impact probably at such and such a time, but that 
is not necessarily the most effective communication with the 
public. So we have to bring in folks who are more experienced 
in communicating risks, not just scientists. I would suggest 
that perhaps once these discussions are completed in, 
hopefully, another year, then effective communications would 
come out of that.
    Ms. Bonamici. Dr. Lu, do you have any input on----
    Dr. Lu. Yeah, my opinion is that we should not find out 
what the impact of a large asteroid is in the ocean and--
because we have the technology to prevent that.
    Ms. Bonamici. Um-hum.
    Dr. Lu. And we should go out there and find these 
asteroids, find out if any of them are going to hit us, and the 
deflect it. And I think we can do that.
    Ms. Bonamici. Thank you. And my time is about to expire. 
Thank you very much. Thank you, Mr. Chair.
    Mr. Palazzo. I now recognize Mr. Posey for five minutes.
    Mr. Posey. Thank you, Mr. Chairman. Somebody mentioned 
climate change study a little while ago. You know, asteroids 
took care of that at one time, and if it happens again, we will 
not have global warming. They can fix that forever.
    Out of curiosity for the three of you, the Administration 
is excited about privatizing space to the greatest extent 
possible. What do you think would be an appropriate number for 
an X prize type of arrangement for identifying and destroying 
an asteroid, just off the top of your head, all three of you, 
starting with Dr. Lu?
    Dr. Lu. Well, if you ask the question--I mean what would it 
take to find these asteroids first for the first part of the X 
prize. It is really a two-step process.
    Mr. Posey. Right.
    Dr. Lu. I would lay a number out that would be equivalent 
to whatever--you know, some fraction of what NASA would have 
spent if they did it themselves. And that number is probably in 
the range, according to the NRC report, $800 million to a 
billion. So pick some fraction of that. That is why we think we 
can do it for $450 million, and that is what our contract 
specifies. But if you put the prize somewhere around there, 
then NASA is guaranteed to save money if it succeeds.
    Mr. Posey. Yeah, and if it doesn't, the money is never 
spent.
    Dr. Lu. Exactly.
    Mr. Posey. Okay. How about--that is to find one. Does that 
include destroying it?
    Dr. Lu. No, but I think if you--once you find them, 
remember that you will now know if there is something that is 
going to hit that is a definite threat in the next century. And 
now you have got time to do it right. And also I think money is 
also no object if something is really barreling down on the 
Earth and you know the time, date, and place that thing is 
going to hit. I think we can come together and solve that 
issue.
    Mr. Posey. Okay. Thank you. Dr. Yeomans?
    Dr. Yeomans. I would add that NASA already has 15 years of 
experience in this area of identifying objects. They have three 
programs underway, ground-based optical detection. I would 
suggest perhaps a study that could be undertaken to see whether 
we could leverage those assets to improve what is already there 
by bringing online new technology and new telescopes along with 
studies to flesh out what is the most effective way of 
deflecting an object that is found on an Earth-threatening 
trajectory.
    My comment would be, we should leverage existing activities 
and facilities.
    Mr. Posey. Okay. Well, it is my understanding the Small 
Bodies Assessment Group at Lunar Planetary Institute was 
chartered for the specific purpose of evaluating those types of 
missions and the priorities of the scientific community for 
near-Earth objects. How has NASA collaborated or leveraged its 
information with this group in planning of the Asteroid Capture 
Mission?
    Dr. Yeomans. I am not intimately involved with the 
connection between the Small Bodies Assessment Group and this 
mission that you mentioned. So I am not aware of what has and 
what has not been communicated between those two.
    Mr. Posey. Okay. Are either of the others familiar with it, 
Dr. A'Hearn?
    Dr. A'Hearn. I know essentially nothing more about this 
mission than I have read in the newspapers and in Administrator 
Bolden's release this morning. I am not aware that the Small 
Bodies Assessment Group has been given any information on it. 
They may have been, but I am not aware of it, so I am not going 
to comment further.
    Mr. Posey. That was my feeling and that is why the 
question. Dr. Lu.
    Dr. Lu. I also am not aware of the connection between the 
two.
    Mr. Posey. Okay. You know, all of your written testimony 
mentioned obviously the asteroid mitigation, and I know we have 
to identify them before we can divert them or destroy them. We 
all knew that. But, you know, assuming that the development of 
a strategy and technology would take a considerable time, you 
know, obviously perhaps years, what steps do you think we 
should be taking in the meantime in case our search uncovers a 
threat, which we all know is not a matter of if but when?
    Dr. Lu. I think it would be prudent to do a deflection 
demonstration mission, pick an asteroid that you know is not 
anywhere near hitting the Earth and show that you can deflect 
it in a controlled manner so that it doesn't break up into 
pieces where you don't know where they are going and so on. I 
think that can be done.
    Mr. Posey. Okay.
    Dr. A'Hearn. I would agree that a demonstration deflection 
mission is an appropriate thing to do, and a deflection mission 
is ideally suited for the international collaboration that I 
think is needed in this area, because typically you need to 
send two spacecraft, one of which does the deflection and the 
other of which monitors the effectiveness of it. Depending on 
whether you are doing a gravity tractor or kinetic impactor 
or--we presumably would not do a nuclear one as a test and the 
ability to have international collaboration on coordinating two 
spacecraft is important to get the various countries trusting 
that we are not trying to divert something to land somewhere 
else.
    Mr. Posey. Interesting. I hadn't thought about that but I 
think you are correct. Dr. Yeomans, Mr. Chairman, can he 
finish?
    Dr. Yeomans. Can I add something? There is an interesting 
concept pertinent to your point whereby NASA would use the 
excess launch capability for the InSight spacecraft to Mars, 
have a co-launch of an impactor much like the Deep Impact 
mission, and that would go and collide with the asteroid that 
the Osiris Rex mission has already picked for their target. So 
the Osiris Rex mission is already resident, and you would have 
this impactor coming in, and you can measure the deflection. So 
it is a nice leveraging of an existing launch and an existing 
rendezvous spacecraft. So that would be one instructing 
deflection demonstration.
    Mr. Posey. Very good. Thank you. Thank you, Mr. Chairman.
    Mr. Palazzo. You are welcome. I now recognize Mr. Stewart 
for five minutes.
    Mr. Stewart. Thank you, Mr. Chairman. Gentlemen, thanks for 
being here. It gives me faith in our future knowing that there 
are people a lot smarter than me who are working on some of 
these things.
    I am not going to ask in real detail. I would like to just 
kind of encapsulate what I think we have said but bring some 
clarity to it before with some very quick questions. But before 
we do, can I just divert for just a second with this, and that 
is, you know, the old formula E = MC2, and you have talked a 
lot about the mass of these meteorites, potential, you know, 
objects, but is velocity a consideration, too? In other words, 
are some of the smaller ones, are they traveling at such a 
speed that they would have an equally devastating outcome or 
are most of these objects kind of traveling at about the same 
speed out there?
    Dr. Lu. Most of them are--well, they are orbiting the sun, 
so the typical velocities that they hit is really independent 
of the size of the asteroid, and that is between 15 and, say, 
25 kilometers per second.
    Mr. Stewart. Okay.
    Dr. Lu. So 40,000 miles an hour or so.
    Mr. Stewart. So that is--I mean that is a fairly good 
range. Fifteen to 25 is, what, 40 percent or something like 
that? But their velocity doesn't really matter. It really is 
just the size and the weight of the object?
    Dr. Lu. Well, it is a combination of the destructive power, 
it is a combination of the speed and the mass. But from the 
standpoint of deflection, it doesn't much matter.
    Mr. Stewart. Okay. Yes, sir, Dr. A'Hearn.
    Dr. A'Hearn. I was going to just add to that. Indeed, 15 to 
25 kilometers per second is the right ballpark for the 
asteroids. It is one of the things you have to keep in mind, 
however, if you deal with the cometary impact hazard. Those 
come in at more like 30 to 70 kilometers per second. Now, they 
are very infrequent compared to the asteroids, but one of a 
given size will be much more damaging because of that high 
speed of entry compared to the asteroid.
    Mr. Stewart. Yeah, okay. And I appreciated your visual that 
you showed us at the beginning. It kind of gives us a sense of 
the scope there.
    I know there was a recent comet that was discovered in 
January that was looking like it was going to have a near miss 
with Mars, and it would have been a devastating event for--had 
that, you know, impacted the Earth, a dinosaur killing type 
event. And as I recall, it was two years is what the, you know, 
estimated impact time would be. Of course, we know it is going 
to miss it now. If that had been directed toward Earth in two 
years, is there realistically anything we could have done?
    Dr. Lu. It would be very difficult.
    Mr. Stewart. Probably not, is that true?
    Dr. Lu. Yeah.
    Mr. Stewart. So can you give me an idea? I know you are 
speculating, but I mean what--how much time do we need? Do we 
need 10 years. Do we need 20? Do we need eight? I mean, how 
long do we need before we could actually do something even if 
we detected an object that was going to impact the Earth?
    Dr. Lu. I think with 10 years you can do this in a 
controlled manner with backups and so on. Certainly, with 20 
years you could do that. It gets much more difficult the closer 
in it is, and that is, again, the importance of getting early 
warning, because the closer it is to you, the more you need to 
deflect it by to get it to miss.
    Mr. Stewart. Yeah
    Dr. Lu. So it gets much, much harder the earlier--the less 
warning you have.
    Mr. Stewart. Let's put that aside, that consideration of 
the energy to deflect it. In two years from now, could we--are 
we technologically capable of launching something that could 
intercept it? Dr. A'Hearn, you seem to be shaking your head 
``no.''
    Dr. A'Hearn. No. If we had spacecraft plans on the books 
already, that would take a year--I mean a typical small mission 
like a Discovery class mission takes four years from approval 
to start to launch. Okay. Now, a really accelerated military 
program would be faster than that but that is a couple of years 
still.
    Mr. Stewart. Yeah.
    Dr. A'Hearn. And you would have to have something ready to 
launch, basically, if you wanted to do it on very short notice. 
Ten years, 20 years, then you have got time to plan it. Five 
years or less, it is really hard unless you have thought the 
problem through and design things, maybe have components built, 
maybe have a full system but----
    Mr. Stewart. Because what we need, we have nothing like 
this right now. We are not taking an existing weapons system or 
existing vehicle and modifying it. We are really starting from 
scratch to do this, true?
    Dr. A'Hearn. Well, you would try to use it from existing 
components. I mean you could--you would--if you were going to 
do a kinetic impact, you might scale up what was done for Deep 
Impact to larger launch vehicle, larger impactor, and things 
like that. So it is not quite starting from scratch, but it is 
starting from a pretty low point.
    Mr. Stewart. Yeah. Okay. And then last question--well, I 
tell you what, I am out of time. I would love to talk with you 
further, but I appreciate you--again you being here. Thank you.
    Mr. Chairman, I yield back.
    Mr. Palazzo. I want to thank the witnesses for their 
valuable testimony and the Members for their questions. The 
Members of the Committee may have additional questions for you, 
and we will ask you to respond to those in writing. The record 
will remain open for two weeks for additional comments and 
written questions from Members.
    The witnesses are excused, and this hearing is adjourned.
    [Whereupon, at 4:13 p.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Ed Lu

[GRAPHIC] [TIFF OMITTED] T0555.024

[GRAPHIC] [TIFF OMITTED] T0555.025

[GRAPHIC] [TIFF OMITTED] T0555.026

[GRAPHIC] [TIFF OMITTED] T0555.027

[GRAPHIC] [TIFF OMITTED] T0555.028

[GRAPHIC] [TIFF OMITTED] T0555.029

Responses by Dr. Donald K. Yeomans

[GRAPHIC] [TIFF OMITTED] T0555.030

[GRAPHIC] [TIFF OMITTED] T0555.031

[GRAPHIC] [TIFF OMITTED] T0555.032

[GRAPHIC] [TIFF OMITTED] T0555.033

[GRAPHIC] [TIFF OMITTED] T0555.034

[GRAPHIC] [TIFF OMITTED] T0555.035

[GRAPHIC] [TIFF OMITTED] T0555.036

[GRAPHIC] [TIFF OMITTED] T0555.037

[GRAPHIC] [TIFF OMITTED] T0555.038

[GRAPHIC] [TIFF OMITTED] T0555.039

[GRAPHIC] [TIFF OMITTED] T0555.040

[GRAPHIC] [TIFF OMITTED] T0555.041

[GRAPHIC] [TIFF OMITTED] T0555.042

Responses by Dr. Michael F. A'Hearn

[GRAPHIC] [TIFF OMITTED] T0555.043

[GRAPHIC] [TIFF OMITTED] T0555.044

[GRAPHIC] [TIFF OMITTED] T0555.045

[GRAPHIC] [TIFF OMITTED] T0555.046

[GRAPHIC] [TIFF OMITTED] T0555.047

[GRAPHIC] [TIFF OMITTED] T0555.048

[GRAPHIC] [TIFF OMITTED] T0555.049

[GRAPHIC] [TIFF OMITTED] T0555.050

[GRAPHIC] [TIFF OMITTED] T0555.051

[GRAPHIC] [TIFF OMITTED] T0555.052

[GRAPHIC] [TIFF OMITTED] T0555.053

[GRAPHIC] [TIFF OMITTED] T0555.054

[GRAPHIC] [TIFF OMITTED] T0555.055

[GRAPHIC] [TIFF OMITTED] T0555.056

                              Appendix II

                              ----------                              


                   Additional Material for the Record


  Submitted statement by Representative Steve Stockman, Committee on 
                     Science, Space and Technology

    Thank you, Mr. Chairman, for this opportunity to address the 
Subcommittee on this most important topic.
    Our Nation--indeed, our world--faces threats in the future from 
asteroids too small to be detected by our present means but large 
enough to do unspeakable damage to our population centers. Witness the 
recent event in Russia, which has raised worldwide awareness of the 
potential threat. Clearly, it is important for us to increase the 
sophistication of our space sensors so we can detect them in advance. 
But once we spot them, we must ask: what can we do to protect the 
people?
    This Committee is to be commended for its recognition of this 
important issue, and I appreciate this opportunity to address a unique 
technology that could provide us with a potential arrow for our quiver 
of planetary defense. That unique capability is being developed by a 
small, high-technology American company named Ad Astra Rocket, located 
in Webster, Texas next to NASA's Johnson Space Flight Center.
    The company is perfecting the ``VASIMR'' plasma rocket engine, a 
game-changing electric propulsion system which originated at NASA under 
the leadership of its inventor, Dr. Franklin Chang Diaz, a former NASA 
astronaut. Incidentally, more than four years ago, during his U.S. 
Senate confirmation hearing testimony, NASA Administrator Charles 
Bolden described the 25-year efforts of Dr. Chang Diaz and his small 
team at NASA who kept this technology alive on only ``a small stipend'' 
from NASA.
    Since it spun off from NASA in 2005, Ad Astra has continued VASIMR 
development--at a much faster pace and exclusively with private funds 
that brought the technology to a high state of maturity. At a power 
level of 200 kilowatts, their prototype is one of the most powerful 
plasma rockets operating in the world. It has been fired reliably more 
than 10,000 times in their vacuum chamber.
    I know this is not the only advanced rocket being studied today. 
Other technologies, such as hall thrusters and ion engines, are being 
developed by NASA. However, while NASA remains an American space 
technology powerhouse, the world has changed since the opening of the 
space age in the 1950s and 60s, and U.S. innovation in rocket 
technology is no longer confined to NASA. It exists as well in small 
entrepreneurial start-ups such as Ad Astra and others that help 
maintain our nation's technological edge razor sharp. The government 
must keep pace with this changing paradigm and resist becoming a de-
facto competitor with the private sector. It must ensure that fair and 
open competition is promoted and supported at all levels. Judging from 
its recent performance results, the VASIMR technology certainly 
deserves the opportunity to show what it can do.
    Now one of those potential missions--and the major focus of our 
hearing today--is rocket technology to help us avoid a near Earth 
asteroid collision by deflecting it away from the Earth. In response to 
this, Ad Astra recently undertook a study on how this might be 
accomplished. Their concept involves a solar powered robotic craft, 
propelled by Ad Astra's high power VASIMR rockets that, upon arriving 
at the asteroid, uses the plasma exhaust of one of its two engines (the 
other is used to keep the craft in place) to gently push the object for 
days or weeks, depending on the asteroid's trajectory. A recent 
numerical simulation successfully demonstrated the deflection of a 
40,000 ton asteroid similar to the one that barely missed Earth last 
February and larger than the one that actually hit Russia. In their 
study, the team also assumed--as it actually happened--only one year 
advance warning to execute the mission. This was just an initial 
concept evaluation. The team is now further developing the full range 
of their mission capability. The rocket used is the 200kW VASIMR VF-
200, the same model being tested in the laboratory today, and the same 
model the company wishes to test on the ISS in 2016.
    The technology has multiple applications which go far beyond 
asteroid deflection, and include more economical space station re-
boost, satellite deployment, retrieval and mitigation of orbital 
debris. This propulsion technology also enables larger payloads and 
much faster robotic and ultimately human missions to Mars and other 
points in deep space.
    The Company's next step is to test the engine on the International 
Space Station in early 2016--a test which will validate the technology 
for commercial use. Ad Astra has signed an agreement with NASA to move 
forward on this test. As a National Laboratory, the U.S. portion of the 
ISS offers a unique test environment for this technology, and beyond 
accomplishing this important demonstration, Ad Astra's proposed 
electric power and propulsion test facility would actually enhance the 
ISS research infrastructure by providing an unprecedented power storage 
capability that would enable other high power experiments of great 
importance to developing a robust human space exploration framework.
    Ad Astra continues to commit its resources to achieving this 
critical milestone. In my opinion, this is a valuable technology for 
NASA to invest in, both for the planned 2016 validation test on ISS, as 
well as for asteroid deflection and space debris cleanup. With such 
investments, the VASIMR team is prepared to step forward and undertake 
a number of game-changing near-term missions for NASA and the 
commercial space sector. These will help maintain U.S. innovation and 
leadership in the new frontier of commercial space and ultimately help 
pave the way for a robust and economically sustainable exploration of 
the solar system.
    At a recent hearing before this Committee on asteroids, a number of 
experts were concerned that there were no good answers or solutions on 
the horizon for dealing with the threats from asteroids. Mr. Chairman, 
American ingenuity, such as the VASIMR electric propulsion technology, 
will lead the way as part of the solution to the threat from asteroids.
    Thank you, Mr. Chairman.
         Submitted statement by Representative Donna F. Edwards

    It was clear from the first hearing the Committee held on this 
issue a few weeks ago that the problem of near-Earth objects (NEO) 
impacting Earth and possibly causing great harm is worrisome but 
preventable--if we put our minds and resources into it.
    It is also clear that this Committee has been at the forefront of 
ensuring that NASA be tasked with detecting such NEOs.
    Unfortunately, it appears that at the present time, we still have a 
way to go.
    Just take what recently transpired in Hawaii.
    According to media reports, construction and staff jobs at the Pan-
STARRS telescope system in Hawaii, which is used for near-Earth object 
observation, among other purposes, had to be rescued by an anonymous $3 
million donation after federal funding was cut.
    Imagine that, a capability critical to saving the world from 
potentially hazardous asteroids needed to be saved by a private donor.
    But wait, it doesn't stop there. Because of the recent sequester, 
NASA is suspending, effective immediately, all education and public 
outreach activities. In terms of scope, this includes all education and 
public outreach efforts conducted by programs and projects.
    Needless to say, it will be hard to increase public awareness of 
what NASA is doing in detecting NEOs under this suspension.
    At this hearing, we will hear how nongovernment entities are 
proposing to use their own funds to save the Earth by detecting, 
characterizing, and perhaps even deflecting asteroids.
    Some of these entities are driven by a noble cause, to save 
humanity, and are banking on philanthropists to finance their efforts.
    Others, who are planning to mine asteroids to extract ore and 
minerals, see their efforts as useful for detection and 
characterization, since one needs to know where these asteroids are and 
what their composition is likely to be before a mining mission is 
chosen.
    Now, don't get me wrong. I think it's great if the government 
doesn't have to foot the entire bill for proposed missions and 
technologies.
    But what happens when something does not work, or when donations or 
investor contributions do not materialize? Is it prudent for the world 
to solely bank on the success of these nongovernment efforts? What 
happens when a private initiative is no longer an option? Would the 
government need to step in?
    So there are a number of questions this Committee should be 
examining, and I look forward to hearing from our witnesses on their 
perspectives.
    Planetary Society Report submitted by Representative Rohrabacher

[GRAPHIC] [TIFF OMITTED] T0555.057

[GRAPHIC] [TIFF OMITTED] T0555.058

[GRAPHIC] [TIFF OMITTED] T0555.059

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
